<html>
<title> - ANTI-SEMITISM IN RUSSIA</title>
<body><pre>[Senate Hearing 106-06]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 106-06


 
                        ANTI-SEMITISM IN RUSSIA

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate




                      U.S. GOVERNMENT PRINTING OFFICE
 55-215 CC                   WASHINGTON : 1999




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                   GORDON H. SMITH, Oregon, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
JOHN ASHCROFT, Missouri              PAUL S. SARBANES, Maryland
PAUL COVERDELL, Georgia              CHRISTOPHER J. DODD, Connecticut
CHUCK HAGEL, Nebraska                PAUL D. WELLSTONE, Minnesota

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Goldschmidt, Pinchas, Chief Rabbi of Moscow, Moscow Choral 
  Synagogue, Moscow, Russia, and Director of the Foreign Policy 
  Desk of the Russian Jewish Congress............................     6
Harris, David A., Executive Director, American Jewish Committee, 
  NewYork, NY....................................................    11
Levin, Mark B., Executive Director, National Conference on Soviet 
  Jewry, Washington, DC..........................................     9

                                Appendix

Prepared statements of:
  Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware.........    33
  Glickman, Leonard, Executive Vice President, Hebrew Immigrant 
    Aid Society..................................................    34
  Goldschmidt, Pinchas, Chief Rabbi of Moscow, Moscow Choral 
    Synagogue, Moscow, Russia, and Director of the Foreign Policy 
    Desk of the Russian Jewish Congress..........................    35
  Harris, David A., Executive Director, American Jewish 
    Committee, New York, NY......................................    43
  Levin, Mark B., Executive Director, National Conference on 
    Soviet Jewry, Washington, DC.................................    47
White paper entitled ``The Reemergence of Political Anti-Semitism 
  in Russia,'' prepared by the National Conference on Soviet 
  Jewry and the Anti-Defamation League...........................    50

                                 (iii)



                        ANTI-SEMITISM IN RUSSIA

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 1999

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Gordon Smith 
(chairman of the subcommittee) presiding.
    Present: Senators Smith, Biden and Wellstone.
    Senator Smith. Let me say that we welcome you to this 
Senate Foreign Relations Committee's Subcommittee on European 
Affairs hearing. We expect Senator Biden will arrive briefly. 
He will join Senator Wellstone and me.
    It is an honor to have you with us, Senator.
    Senator Wellstone. Thank you.
    Senator Smith. We are here today to discuss an issue that I 
think weighs heavily on all of our hearts. Our desire and 
purpose here today is to see if we can't flesh out some ways to 
make a difference and improve a situation that is deteriorating 
as we speak.
    I had occasion in the capacity of my committee chairmanship 
to travel to Eastern Europe recently, in November. I went out 
of my way to make a pilgrimage of sorts to a horrible place, a 
place in Poland called Auschwitz.
    It left an impression upon me that is one I will never 
forget, one I will always try to act upon to see that within my 
ability and power such things never happen again. It is because 
of that impression that, with all the more alarm, we hear of 
statements coming from leaders of the Communist Party in 
Russia, members of the Duma in Russia, that remind us that this 
ultimate human hatred is still very much alive in the hearts of 
too many.
    It does seem to me that, if this committee can do anything, 
it is to bring attention to an issue. We are going to be called 
upon to vote on lots of foreign aid with which we hope to help 
Russia. But, as a precondition to helping, we also have an 
expectation that international agreements that guarantee 
religious freedom and freedom of conscience will be observed.
    It was with great sorrow that I saw Russia a year or so ago 
pass its law on religious association, which was designed, I 
believe, to be hurtful to religious minorities. It seemed to me 
that these kinds of things were the beginning of a return to 
the mentality that produced pogroms of the 19th and 20th 
centuries.
    Whether you are a Jehovah's Witness, a Mormon, a Jew, or a 
Catholic and you have experienced religious persecution, it 
usually is in one's heart to reach out to help those who are 
likely to be victimized by others.
    So it is for that reason that we are gathered here today, 
to help the Jewish community in Russia, a community with a 
population of probably 500,000 to 600,000 people, to see if we 
cannot help them find a surer footing in a society that is 
increasingly in difficulty both politically and economically, 
to see that they are not made victims yet again.
    We have a distinguished panel with which we wish to explore 
this subject. We welcome you, Rabbi Goldschmidt, and we are 
honored that you would be here.
    We are delighted that both Mr. Mark Levin, the Executive 
Director of the National Council on Soviet Jewry, and Mr. David 
Harris, the Executive Director of the American Jewish Committee 
are here. We thank you all for participating.
    First let me turn to my colleague, Senator Wellstone, who I 
know feels this issue in a very personal way. Senator.
    Senator Wellstone. Thank you, Mr. Chairman. I am going to 
be very brief.
    I would thank Rabbi Goldschmidt for being here and thank 
Mr. Levin and Mr. Harris. I am very interested in what you have 
to say.
    I think that our goal, Mr. Chairman, is to really figure 
out what the U.S. Senate and our government best can do to 
really help people in Russia who are having to deal with anti-
Semitism. I can imagine any number of different policy 
initiatives or things that we might do on a variety of 
different fronts. But I am anxious to hear your 
recommendations.
    I was thinking, as we were getting started with this 
hearing, a little bit about my father. You know, quite often 
when events such as these are in the middle of the day, people 
have other things to do. I know there is a tremendous interest 
in this subject, but there are other commitments.
    This is a hearing that, unless I am called to the floor of 
the Senate for an amendment, I would not want to miss. I am the 
son of a Jewish immigrant from Russia. So I want to try to make 
a difference as a United States Senator.
    Senator Smith. Thank you, Senator.
    Rabbi Goldschmidt, we will begin with you.

STATEMENT OF PINCHAS GOLDSCHMIDT, CHIEF RABBI OF MOSCOW, MOSCOW 
 CHORAL SYNAGOGUE, MOSCOW, RUSSIA, AND DIRECTOR OF THE FOREIGN 
           POLICY DESK OF THE RUSSIAN JEWISH CONGRESS

    Rabbi Goldschmidt. Honorable Chairman and Senators, I would 
like, first of all, to thank the U.S. Senate and you, Mr. 
Chairman, of the Subcommittee of European Affairs of the 
Foreign Relations Committee, as well as Senator Jesse Helms, 
the chairman of the Foreign Relations Committee, for inviting 
me to testify on behalf of the Jewish community in the Russian 
Federation.
    I have been privileged to serve the Russian Jewish 
community during the last 10 years as the Rabbi of Moscow and, 
since the organization of the Russian Jewish Congress, I have 
been responsible for foreign relations of the organized Jewish 
community of Russia, the Russian Jewish Congress.
    The Russian Jewish Congress has been established in 1996 by 
a joint initiative of the spiritual and financial leaders of 
our community and has over 48 branches in all of Russia. It is 
the prime umbrella group of the estimated over 1 million Jews 
in Russia and is dealing with fundraising, political 
representation, anti-defamation, and the development of our 
community.
    If I would draw a parallel to the United States, I could 
say that it is a combination of a ``Conference of Presidents of 
Major Jewish American Organizations'' and the ``United Jewish 
Appeal.'' The head of the Russian Jewish Congress is its 
president, Mr. Vladimir Goussinsky, a well known business 
tycoon and a champion of the free press.
    The Russian Jewish Congress has had some major achievements 
during the few years of its existence. First of all, it united 
the whole community, secular and religious. Second, it became a 
powerful voice within Russia against anti-Semitism and for 
democracy. At the inaugural of the Holocaust Memorial Synagogue 
on Victory Hill in Moscow during the early days of September of 
last year, President Boris Yeltsin attended the ceremonies. He 
was the first Russian head of state to attend a Jewish event 
during this century.
    Nevertheless, as time has progressed, we experienced a new 
wave of anti-Semitism as presented in my statement.
    However, for the first time there was a strong response 
within Russia from its Jewish community and, subsequently, from 
the Russian Government.
    Faltering political and economic conditions in Russia today 
have brought fear and uncertainty to much of the population. 
President Yeltsin's poor health and the frequent change of 
prime ministers have led to a general lack of confidence in the 
government. At the same time, nationalist groups and the 
Communist Party appear to be gaining strength.
    The Communist Party to a large extent engineered the 
resurgence of political mainstream anti-Semitism after the 
crisis of August 17. The KPRF, or Communist Party under the 
leadership of Mr. Gennady Zyuganov, has sought to use the fact 
that some ministers in the last government were of Jewish 
descent to blame the economic crisis on the Jews. This tendency 
toward anti-Semitism and racism can be understood in the wider 
context of the transformation of the Communist Parties of 
Eastern Europe, which had to find new political platforms. 
While most Communist Parties in Central and Eastern Europe have 
evolved, in general, to the social democratic model or to other 
forms of left wing activism, in Russia the Communist Party has 
turned to nationalism which, in fact, makes it a National 
Socialist Party.
    The right wing of the party, represented by General Albert 
Makashov and Mr. Viktor Ilyukhin, accused the Jews of genocide 
against the people of Russia. When liberal lawmakers tried to 
censure Makashov on November 4, the Communist Party, with one 
exception, defended Makashov's statements.
    In reaction to General Makashov's October comments and the 
Duma's failure to censure him, President Yeltsin requested a 
statement from Communist Party leader Gennady Zyuganov, 
regarding his party's position on anti-Semitism. Mr. Zyuganov's 
response reiterated the accusations made by the most anti-
Semitic members of his party. In the form of a letter to the 
Minister of Justice and the National Security Council, 
Zyuganov's response contained harsh anti-Semitic references 
reminiscent of the old Soviet era and served only to heighten 
concerns about anti-Semitism in Russia.
    Zyuganov stated that he believes ``that too many people 
with strange sounding family names mingle in the internal 
affairs of Russia,'' a clear reference to the powerful Jews in 
the economy and in the government.
    The proliferation of radical anti-Semitic racist literature 
and journals is growing. This literature was available in the 
not so recent past at any metro station in Moscow. However, 
Luzhkov responded with a crackdown on the dissemination of 
fascist symbolism in the city, arresting transgressors and 
confiscating material. In other areas of the Russian 
Federation, anti-Semitic material is readily available on the 
streets.
    I would like to make a few comments on anti-Semitism on the 
right of the political spectrum.
    The rise of the Neo-Nazi movement is also worrisome. On the 
far right of the political spectrum, Barkashov's ``Russian 
National Unity,'' with thousands of paramilitary troops, gives 
much cause for concern. They planned to hold their annual 
convention in Moscow, but Moscow Mayor Luzhkov banned the 
meeting and fired a police official who failed to break up a 
march of the Russian National Unity movement. Interior Minister 
Sergei Stepashin said he would sack chiefs of police 
departments if they did not oppose Neo-Nazi rallies and 
demonstrations. President Yeltsin has repeatedly denounced 
anti-Semitism and formed a special commission to fight the rise 
of anti-Semitism in the country.
    The Moscow prosecutor's office did revise its earlier 
decision and opened criminal proceedings against Barkashov, who 
had voiced threats against Luzhkov. On the other hand, 
Communist deputies in the Duma have railroaded the motion to 
prohibit the use of Nazi symbolism, which is used by fascist 
groups.
    In the West, Zyuganov tries to picture himself as a liberal 
social democrat, while at home he pursues national socialist 
policies. The Jewish community of Russia is of the opinion 
that, until Zyuganov and his cohorts disassociate themselves 
from the virulent anti-Semitism in the party voiced during the 
last few months, the United States of America and any other 
country should not invite these members of the Duma for inter-
parliamentary discussions.
    Honorable Chairman and Senators, I would like again to 
stress the importance of the ongoing battle for the voice of 
democracy and tolerance in Russia. This pressure yields 
results, even if belatedly.
    Only last week did Mr. Zyuganov publicly on national TV 
distance himself from the Russian National Unity organization 
of Barkashov. We are sure that this statement was a result of 
mounting international pressure on the Communist Party.
    We believe also that this pressure should continue. 
Kondratenko, sort of the Governor of Krasnodar, who has made 
many comments against the Jewish community, against a Masonic-
Judaic conspiracy, has sort of apologized to the local Jewish 
community in Krasnodar, expounding on the distinction between 
Jews and Zionists. Makashov, however, has announced his bid for 
the Governorship of one of Siberia's areas, and talk about a 
Presidential bid is circulating in Moscow.
    The order of the day is to marginalize anti-Semitic 
political forces and forge a large national consensus of 
Russian political, communal and religious leaders, who will 
stand strong against those political forces which want to split 
the country with racism and anti-Semitism.
    The United States of America and the democracies of Europe 
should, in their dialog with the leaders of Russia, stress the 
importance of a strong stand against racism, which is crucial 
to the well-being and internal stability of the Russian 
Federation.
    Thank you.
    [The prepared statement of Rabbi Goldschmidt appears in the 
appendix on page 35.]
    Senator Smith. Thank you, Rabbi, very much.
    I think I misspoke, Mark Levin, when I introduced you 
earlier. You are the Executive Director of the National 
Conference--not Council--on Soviet Jewry. We welcome you, sir.

   STATEMENT OF MARK B. LEVIN, EXECUTIVE DIRECTOR, NATIONAL 
           CONFERENCE ON SOVIET JEWRY, WASHINGTON, DC

    Mr. Levin. Thank you, Senator.
    It is a pleasure to appear before your subcommittee in 
behalf of the NCSJ. I want to begin by recognizing your 
commitment, as well as that of Senators Biden and Wellstone and 
many of your colleagues, to fighting this rise of anti-Semitism 
in Russia and elsewhere in the former Soviet Union.
    I ask that my full written testimony be included for the 
record.
    Senator Smith. Without objection.
    Mr. Levin. What I would do is just summarize briefly and 
not cover the same parts that Rabbi Goldschmidt just did. But 
before I begin, I would like to give special recognition to 
Senator Biden, for his involvement on behalf of the Jews in the 
former Soviet Union which goes back more than 20 years.
    Senator Biden. It's only because I have been here so long. 
These guys are doing the same thing. I am just getting to be a 
relic.
    Mr. Levin. I will let you say that, Senator. But we have 
had the opportunity to work together for many years and I think 
that work has paid off as we have seen such great strides being 
made in the last few years. It is unfortunate that we are all 
here today talking about a problem that many of us thought 
would begin to recede, if not disappear. But, unfortunately, it 
has not.
    Mr. Chairman, I would ask that a statement by the Hebrew 
Immigrant Aid Society be included in the record. They would 
like to associate themselves with the remarks of both me and my 
colleagues. I will provide that for the record.
    Senator Smith. Without objection.
    [The information referred to appears in the appendix on 
page 34.]
    Mr. Levin. Mr. Chairman, you know that one of our member 
agencies, the ADL, and also the National Conference offered for 
the record a white paper on ``The Reemergence of Political 
Anti-Semitism in Russia.'' We had the opportunity to present 
this paper to Secretary of State Albright before her trip to 
Moscow last months. We would also put that into the record, if 
that is acceptable.
    Senator Smith. Without objection.
    [The information referred to appears in the appendix on 
page 50.]
    Mr. Levin. The NCSJ supports United States cooperation with 
Russia in many ways and is in close contact with United States 
and Russian officials. We continue to support U.S. efforts to 
aid this region and believe that an active foreign policy is 
one of the best antidotes to anti-Semitic rhetoric.
    The NCSJ supports administration and congressional actions 
in condemning the Communist Party's attempt to rekindle anti-
Semitism.
    Mr. Chairman, let me just spend a minute or two on the 
current situation in Russia.
    Economic deterioration and dislocation are opening the door 
for anti-Semitic scapegoating in Russia. This has broad 
ramifications since anti-Semitism and the rule of law also 
indicate the relative health of Russian society.
    In recent months, anti-Semitism has become a political tool 
for numerous members of the Communist Party. In fact, I would 
say this is a cynical attempt on their part to use anti-
Semitism to strengthen their presence in the Duma and, 
hopefully, catapult that to a Presidential candidate who would 
be successful in the next election in the year 2000.
    Parliamentary elections set for later this year--as I 
mentioned, with the Presidential vote to follow--can only 
increase the incentive for certain candidates to promote or 
tolerate inflammatory appeals to popular dissatisfaction unless 
such behavior is commonly understood to be unacceptable. That 
is where we need the Russian political leadership to continue 
to speak out.
    You have heard about General Albert Makashov and Mr. 
Ilyukhin. I think it is worth just mentioning some of their 
words.
    General Makashov has said ``Death to the Yids.'' Earlier 
this week, he said to a gathering, ``We will be anti-Semites 
and we must be victorious.'' I am paraphrasing. The whole 
speech is much worse.
    Mr. Ilyukhin asserted during a parliamentary session in 
December that Jews were committing genocide against the Russian 
people. Ilyukhin complained that there were too many Jews, as 
you have heard, in President Yeltsin's inner circle and called 
for ``ethnic quotas'' in government posts.
    You have heard briefly about Gennady Zyuganov. It is not 
worth repeating too much except that he did say, ``Zionism has 
actually shown itself to be one of the strains of theory and 
practice of the most aggressive imperialist circles striving 
for world domination. In this respect, it is related to 
fascism.''
    As Rabbi Goldschmidt said, these are words we have not 
heard since the height of Brezhnev and his successors. Rabbi 
Goldschmidt mentioned the Russian National Unity. This was an 
offshoot of a group that was thought not to have much strength. 
But in the last few months, it has spread its hateful message 
throughout Russia.
    It has local groups not just in Krasnodar but in many parts 
of Russia.
    In essence, the legislative branch of the Russian 
Government has become a vehicle to espouse anti-Semitism. Anti-
Semitism is being used by extremists, but the extremists are no 
longer marginal.
    Fortunately, President Yeltsin and others in his government 
have spoken out, as have some local and regional political 
figures. But it is not enough right now. They need to continue 
to speak out and they need to continue to take concrete action 
against those who violate Russian law.
    We call upon the Russian Government to strictly enforce 
those laws that are already on the books against engaging in 
hate crime activities and we would hope that they would take 
vigorous action.
    We would ask that Congress continue to speak out and 
continue to make this issue a front burner issue in all of your 
contacts with your Russian counterparts. We believe 
congressional contacts with Duma members and with Prime 
Minister Primakov in his visit to the United States next month 
will have a tremendous impact.
    We have also called for greater NGO involvement in Russia 
and the other republics to try to work with our Russian 
counterparts to use the mass media that is available to get 
messages across that deal with tolerance and pluralism, to try 
to penetrate below what many Russians are hearing today.
    We are prepared to work with our government, as well as 
with the Russian Government and Russian NGO's, to see that 
these types of projects can be undertaken.
    In summary, it is imperative that United States policy 
continue to engage and to support pro-democracy forces in 
Russia and elsewhere and to counter negative messages of ethnic 
hatred, such as those adopted by the Communist Party of Russia.
    This is the time to send a strong message to Russia 
denouncing the growing anti-Semitism and urging their officials 
to take concrete action to eradicate and repudiate anti-
Semitism.
    The protection of minority rights within the over-arching 
goal of promoting human rights is at the heart of this effort. 
Russia's successful development toward democracy depends on it.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Levin appears in the 
appendix on page 47].
    Senator Smith. Thank you, Mark. We do denounce it and state 
publicly that our ability to assist Russia is really predicated 
on their ability to live up to their agreements on human rights 
and religious conscience. That is how one Senator feels. Next 
is David Harris. Welcome, sir.

  STATEMENT OF DAVID A. HARRIS, EXECUTIVE DIRECTOR, AMERICAN 
                 JEWISH COMMITTEE, NEW YORK, NY

    Mr. Harris. Thank you, Mr. Chairman. It is a pleasure to be 
back here before this subcommittee.
    I would like, first of all, to express my deepest 
appreciation to you, Mr. Chairman, as well as to Senators Biden 
and Wellstone, for the opportunity to appear here on this 
distinguished panel.
    Mr. Chairman, I have the privilege of representing the 
American Jewish Committee, with which I have been associated 
since 1979. Much of that time, given my own background in 
Soviet affairs and knowledge of the Russian language, has been 
devoted to matters affecting the U.S.S.R. and the post-Soviet 
successor States.
    The American Jewish Committee, our Nation's oldest human 
relations agency, was founded in 1906. We are in close contact 
with Jews throughout the former Soviet Union, travel regularly 
to Russia, commission research and polling on conditions 
affecting Russian Jews, and meet frequently with high level 
Russian officials to discuss issues of concern to Jews inside 
Russia as well as Russia's relations with the United States and 
the countries of the Middle East.
    Mr. Chairman, the American Jewish Committee was founded in 
1906 in response to the pogroms of Jews in czarist Russia. Two 
months after our founding, we established a press bureau. The 
reason for that, it was explained, was as follows, and I quote: 
``For the prevention of massacres of Jews in Russia, no means 
can be considered so effective as the enlightenment of the 
people of the Western world concerning real conditions in 
Russia.''
    These AJC leaders were right on target at the time. Their 
approach is equally valid 92 years later.
    Human rights danger zones require outside monitoring and 
exposure, lest potential perpetrators believe they can act with 
impunity and benefit from the world's indifference.
    Senators, I wish to commend you. You are carrying on a 
remarkable congressional tradition, dating back to the last 
century, of examining Russian attitudes toward and treatment of 
Jews.
    In the earliest known case, on June 11, 1879, Congress 
passed a joint resolution that cited laws of the Russian 
Government that ``no Hebrew can hold real estate'' and 
condemned Russia because a naturalized American Jewish citizen 
was prohibited from gaining title to land in Russia he had 
purchased and paid for.
    On December 13, 1911, this Senate Committee on Foreign 
Relations held a hearing on S.J. Res. 60, ``a joint resolution 
providing for the termination of the treaty of commerce and 
navigation between the United States of America and Russia 
concluded at St. Petersburg December 18, 1832.''
    The Congress abrogated the treaty because of Russian 
discrimination against American Jewish citizens in the issuance 
of entry visas to Russia.
    This marked the first, though not the last, time Congress 
would establish a direct linkage between Russia's human rights 
performance and America's economic policy toward that country. 
The landmark Jackson-Vanik amendment, passed over 60 years 
later by Congress, linked the extension of Most Favored Nation 
trade status with the emigration policy of Communist countries.
    That 1911 hearing was addressed principally by the 
leadership of the American Jewish Committee. While honored to 
follow in the footsteps of these eminent leaders, I am, 
frankly, dismayed that the issues that preoccupied them in the 
early years of this century remain with us in one form or 
another as the century closes.
    One hundred twenty years after Congress first acted 
regarding Russia's mistreatment of Jews and 88 years after the 
American Jewish Committee first appeared before this very 
committee, we gather here once again to examine the condition 
of hundreds of thousands of Jews residing in Russia, living in 
an uncertain environment.
    To begin with, then, anti-Semitism in Russia has a 
tragically long history. Mistreatment of Jews in Russia can be 
documented for literally hundreds of years. Waves of violence, 
blood libels, restrictive or punitive decrees involving 
education, employment, residency, and military service, and 
other forms of repression, have been all too familiar features 
of the Russia historical landscape.
    As a result, countless Jews were killed and millions 
emigrated, especially to this country. Still, many remained. 
Russia was, after all, their place of birth, their home, and 
all that was familiar to them.
    Precisely because of the centuries-old pattern of 
persecution, punctuated, it must be noted, by occasional 
periods of hope and relative calm, depending largely, if not 
entirely, on the ruler of the day, there is a need to take 
seriously manifestations of anti-Semitism in Russia at any 
time, and not least today.
    Put most starkly, we ignore the lessons of history at our 
peril.
    The situation today is extraordinarily complex. On the one 
hand, Jewish life in the post-Communist era is miraculously re-
emerging, notwithstanding the relentless, 7 decades long effort 
of the Communist apparatus to uproot and destroy it. 
Synagogues, schools, community centers, and a myriad of other 
Jewish institutions are developing, and contacts between 
Russian Jews and Jews beyond Russia's borders are frequent and 
unrestricted. The presence here on our panel of Chief Rabbi 
Goldschmidt of Moscow is testament to this remarkable 
development.
    But, at the very same time, the intractability of the 
country's economic and political travails should be a 
cautionary note for us, as should its fragile democratic 
system.
    The fear persists that this embryonic democratic effort 
could yield--perhaps in the upcoming elections--to a more 
nationalist, authoritarian, or Communist regime, whose rallying 
cry might well include the alleged responsibility of the Jews 
or, in only slightly more veiled terms, the ``non-Russians,'' 
for Russia's economic stagnation, loss of empire, or domestic 
turmoil. In a word, Mr. Chairman, scapegoating.
    It has worked before in Russian history. It could work 
again. The most recent disturbing anti-Semitic incidents which 
have been documented by my colleagues underscore the complexity 
of the situation.
    Again, history has shown the enduring appeal of anti-
Semitism as a political weapon in this part of the world, 
especially during periods of transition, when a country like 
Russia is convulsed by dramatic and unsettling change. This is 
one such period.
    Should political, economic, and social conditions improve, 
Jewish vulnerability could ebb. But if conditions either 
stagnate or decline further, the Jews might well be blamed, as 
they have in the past, for Russia's daunting difficulties, 
accused of profiting at Russia's expense, or attacked as 
outsiders disloyal to ``Mother Russia.''
    The best antidote to anti-Semitism in such situations would 
be clear, consistent, and unambiguous statements from Russia's 
leading political figures and by spokesmen for the country's 
key institutions, coupled with appropriate action to relegate 
anti-Semitism to society's margins.
    Come elections, will there be Russian politicians with the 
courage to denounce unequivocally those who openly or in coded 
language ``play the anti-Semitic card'' and, instead, appeal to 
the higher instincts of the Russian people? One can only hope 
so.
    Will there be a critical mass of the Russian people 
prepared to reject any such crude charges against the Jews? 
Again, one can only hope so.
    But we are entering an election period when there will be a 
temptation to sound the nationalist theme, that is, to pander 
to a disaffected electorate looking for simplistic explanations 
for the country's deeply rooted difficulties, or to conjure up 
``enemies'', internal or external, who allegedly undermine the 
country's well-being. This could prove dangerous.
    Some key Russian institutions, especially the Russian 
Orthodox Church, could, if they choose, play a constructive 
role in this regard. The church, which occupies a privileged 
place in the religious life of Russia, has never undergone the 
kind of soul-searching and moral and historical reckoning 
regarding its relations with the Jews that the Catholic church 
and many Protestant churches, to their credit, have initiated 
in the second half of this century. Such an undertaking is 
overdue.
    The Russian educational system surely could do much more to 
promote concepts of tolerance and understanding.
    During the Communist era, when I had an opportunity to 
spend several months in the U.S.S.R. teaching in elementary and 
secondary schools in Moscow and Leningrad, an essential element 
of the prevailing ideology, however factually untrue, was the 
so-called ``brotherhood of Soviet nationalities.'' Since it was 
a given, there was no need to teach it, or so the conventional 
Communist wisdom went.
    Russia today desperately needs to teach its young people 
the importance, especially for a democratic society, of the 
genuine equality of all its citizens, be they of Jewish, 
Chechen, Gypsy, Armenian, or other origin.
    Are new laws needed to deal with anti-Semitism and other 
forms of hate? That is a difficult question to answer, in part 
because our own American Bill of Rights enshrines freedom of 
speech, however repugnant it may sometimes be, as an essential 
tenet of democracy. At the same time, there are already several 
laws on the Russian books respecting incitement and empowering 
the government to prosecute publishers of extremist 
publications, including those deemed to be anti-Semitic. To 
date, however, even these laws have seldom been invoked, which 
may be interpreted benignly as another manifestation of the 
country's current inefficiency or more darkly as a calculated 
unwillingness to confront the country's hate mongers.
    Mr. Chairman, in conclusion, I believe that we have the 
possibility of pursuing two parallel strategies to insure the 
well-being of Jews in Russia. The first is the recognition that 
democracy and democratic institutions are the best assurance 
that Jews, indeed all who live in Russia, will be governed by 
the rule of law, not by the rule of whim.
    We have an extraordinary opportunity, previously unimagined 
or unimaginable, to help transform Russia into a full-fledged 
member of the family of democratic nations.
    Needless to say, we cannot, as a Nation, do it alone, nor, 
as our experience since 1991 has demonstrated, are we yet 
assured of success. But to shrink from the challenge at this 
stage would be historically irresponsible.
    Second, we, as a Nation, must continue to make clear to 
Russia and its leaders that, as they look to Washington for 
assistance, support, and recognition of their international 
standing, unstinting respect for democracy, human rights, and 
the rule of law is central to our bilateral agenda with Moscow, 
never a footnote or an afterthought.
    History has, in fact, taught us that the political and 
social condition of Jews in a country such as Russia is just 
about the most accurate barometric reading of the overall state 
of democracy, human rights, and the rule of law.
    In this regard, the Congress and this subcommittee in 
particular, have a vitally important role to play in addressing 
the conditions of Jews in Russia. Judging from the impressive 
historical record, stretching back 120 years, and exemplified 
by hearings such as this one today, Mr. Chairman, I am 
confident that the Congress will continue to do so with 
characteristic distinction, unswerving principle, and 
relentless commitment.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Harris appears in the 
appendix on page 43.]
    Senator Smith. Thank you, David. That is an excellent 
statement.
    We are privileged to be joined by Senator Biden, a pioneer 
in this fight.
    We turn to you for your statement.
    Senator Biden. Well, Mr. Chairman, thank you.
    I was not much of a pioneer. But there are certain things 
that bring us all to public life. For each of us they are 
different, and one is not necessarily any more noble or worthy 
than another.
    I was raised in a home where my father might have been 
referred to as a ``righteous Christian.'' We would sit at the 
dinner table together. Our dinner table was a place where we 
gathered to talk and, incidentally, to eat, rather than gather 
to eat and, incidentally, to talk.
    My father was one of those folks who brought us up in a 
certain way. Being Catholic, we were born with an almost equal 
sense of guilt that my Jewish friends seem to have. My father 
would always talk--and I mean this sincerely--about how the 
world stood silently by in the 1930's in the face of Hitler. He 
had a preoccupation with the Holocaust.
    I might say, as a point of personal privilege--as we say in 
this body--the first time I took my sons, whom both of you have 
met, to Europe, some of my friends thought it was somewhat 
extreme that the first place I took them was to Dachau.
    I am one who does believe that history repeats itself, that 
things can happen again. I think what we are seeing in all of 
Europe in different manifestations, not just with Jews but with 
Moslems in the Balkans, and other different ethnic groupings, 
is truly amazing. Whoever thought we would hear in the late 
1990's a declared policy of ``ethnic cleansing?'' Whoever 
thought we would be back in the position where we would have to 
have a hearing like this?
    In 1994, back in the ``good ol' days,'' Mr. Chairman, when 
my party controlled the Senate and I sat in your seat, I 
instituted a series of hearings in the fall of 1994, not long 
after the collapse of the Soviet Union and the rise of anti-
Semitism in the former Soviet Union. Mr. Levin's organization 
helped me at that time.
    Everyone said at the time that, although it was ``around,'' 
to use a colloquial phrase, it was not rooted, and it was not 
deep.
    If you look at public opinion polls now in Russia, the 
majority of the Russian people declare themselves not to be 
anti-Semitic. The majority declare themselves to not share the 
views expressed by Zyuganov and the retired Communist General, 
who is as bright as his career was shining. But here we are.
    Mr. Harris' little stroll down memory lane is worth 
thinking about. Here we are, 100 years later, more than a 
century after the first action of Congress on this subject.
    Mr. Harris. 120 years.
    Senator Biden. Yes, 120 years.
    I just want to say in my opening statement--and I will ask 
that at some point my entire statement be placed in the 
record--to you, Mr. Chairman, that not only the Jewish 
community but all people of faith should be grateful that you 
are here. One of the things you notice about people is those 
issues which burn inside them such that you can see the light 
in their eyes.
    One of the things that burns inside you is your notion of, 
and commitment to, religious freedom. I think it is indeed 
fortunate.
    I agree with Mr. Harris. I do not have any legislative 
prescription of how to deal with this. I have a number of ideas 
that I want to discuss with you; and I want to hear what you 
think we should specifically be doing. But I think the single 
greatest comment is that of Justice Holmes, who said--and I am 
paraphrasing--that the cold light of day is the best 
disinfectant.
    I think the best disinfectant to deal with these vermin is 
to expose them, as was the case 80-some years ago. It is also 
the case today.
    So you are having this hearing, Mr. Chairman. And knowing 
you, as I have come to know you, I know you will persist in 
this issue. I think it is the single most significant 
contribution we can immediately make.
    I would ask unanimous consent that the remainder of my 
statement be placed in the record, Mr. Chairman.
    Senator Smith. Without objection.
    Senator Biden. I also would like to point out that there is 
that long history in Russia that is shameful, from the Pale of 
Settlement to the Black Hundreds that carried out their 
murderous activities, to what a lot of people found incredible 
and still believe in Russia and other places, the so-called 
Protocols of the Elders of Zion, which were totally debunked 
and exposed in 1921. But there are people, in 1991 and 2001 who 
will cling to the protocols as if they were real. They will 
hold on to the idea that we could again have someone who could 
try to pull off what Stalin, just before his death, had been 
cooking up, the so-called Plot of Doctors, how Jewish doctors 
were hired by the United States to kill high ranking officials, 
et cetera.
    This is almost the stuff of fiction. I mean, if we sat down 
with our children today in America and said we were going to 
write a horror movie about this, or we were going to write a 
play about this; they would say, ``come on, Dad, who on Earth 
would buy that. I mean, let's get real and do something that is 
believable.''
    But, unfortunately, this is all too real.
    So I would conclude, Mr. Chairman, by saying to you and to 
our colleagues who are here that I think one of the unfortunate 
results of the demise of communism, in the minds of autocrats, 
totalitarians, and dictator-like people, is that they have no 
unifying glue to hold them together anymore. Milosevic is 
moving to rabid nationalism in order to sustain his ``raison 
d'etat.''
    The Reds and the Browns in the Duma are resorting to 
scapegoating, and the most time honored one in Russia is the 
Jews.
    We are talking about 600,000 to maybe 1.2 million people, 
maximum. Those are the numbers we are talking about.
    I always find it phenomenal what I say to some of the 
``wackos'' who show up occasionally at my town meetings. For 
example, last year the Ku Klux Klan showed up at one of my town 
meetings. When I hear their theories, I think to myself it is 
amazing how powerful these Jewish folks must be if 600,000 of 
them can control all of Russia.
    I am a Zionist in my heart and I think that your being 
here, Rabbi, is very helpful to us.
    I will cease and desist now and, after the chairman asks 
some questions, I would like to ask you each some questions, 
particularly you, Rabbi, about what the devil we can do now 
beyond exposing this. What do we do now and how widespread is 
it.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Biden appears in the 
appendix on page 33.]
    Senator Smith. Thank you, Senator Biden.
    I think I have the same questions as Senator Biden. So we 
will just get right to them.
    It first comes to mind, as you look at the Russian 
politicians who are vying for the Presidency, that certainly 
Mr. Primakov has to be considered as a very viable candidate. I 
wonder if you can share with me what you know of his views on 
this issue.
    Senator Biden. This may cost you a cabinet position, Rabbi.
    Rabbi Goldschmidt. Mr. Chairman, Senator Biden, after 
Makashov's statement, the first one to come out with a public 
statement against Makashov was Mayor Luzhkov of Moscow. Then 
the Presidential administration, President Yeltsin, came with a 
statement. Only later did Prime Minister Primakov come out with 
a statement.
    I remember when the Marina Roscha Synagogue was burned 
down. I think it was about 3 years ago. Back then there was 
only a statement to the foreign press of President Yeltsin. 
There was no statement about racial intolerance to the local 
press. No one has seen it as important that they have to come 
to the site, visit the site of the bombing of a synagogue.
    However, last year, when the Marina Roscha Synagogue was 
bombed for the second time, there was right away a visit and 
also right away statements by government leaders.
    If the question is what should be done now in order to 
fight this new wave of intolerance, racism, and anti-Semitism, 
which is, by the way, a growing problem, I think since anti-
Semitism is basically politically engineered as a new political 
platform of the left, the Communist Party being the majority 
party of the Russian parliament, it is, first of all, necessary 
to fight politically by putting pressure against the Communist 
Party, by telling them you cannot be part of, or show 
yourselves as being democrats, being part of the Western 
Hemisphere and the enlightened world, if you pursue such 
policies.
    Senator Biden mentioned the law on religion and conscience 
which was passed. This law was passed mainly because of the 
support of the Communist Party.
    There is a second problem, the problem of law enforcement. 
There are laws against racial incitement in Russia--Article 280 
and Article 288. We repeatedly asked the Prosecutor General, 
Mr. Skuratov--who, in the meantime has left his office--that he 
should enforce this law against Makashov, against Barkashov, 
and others. Up to 2 months ago, no criminal investigation was 
opened against these people.
    Only as of late--and we believe it part of local pressure 
and international pressure, and thanks to letters of the U.S. 
Senate and the Congress--have we seen that there is a step in 
the right direction and that criminal investigations are also 
being opened against them. The problem is that people like 
Makashov and Ilyukhin have immunity as members of the 
parliament. The parliament has to decide to withdraw immunity, 
and I do not see this happening in today's parliament where, 
basically, the Communist Party, along with the Liberal 
Democratic Party of Zhirinovsky, control the parliament.
    So it is a problem of law enforcement. It is a political 
problem. I think that the Senate, the government, and the 
people, in dialog with the people of Russia, with the 
legislators, with the leaders of the government, should make a 
strong point. I think that by meeting and working with the 
leaders of the various religious groups and leaders of the 
intelligentsia as well as leading entertainment figures it 
would be possible to create a new consensus in Russia which 
will reflect the popular poll taken that there is no place in 
Russia for the repetition of history, for using anti-Semitism 
as a political tool, and, much worse, that it should trickle 
down to the streets and that it should become violent.
    Senator Smith. Thank you.
    Mr. Levin.
    Mr. Levin. Mr. Chairman, we need Prime Minister Primakov to 
be a leader. We need him to speak out forcefully. We need him 
to lead those elements, those few elements, that remain in the 
Duma to be a counterforce to the dominant presence of the 
Communists and nationalists. We need him to do it now.
    If he is going to be a Presidential candidate, if he is 
going to be one of the primary candidates, then he needs to 
demonstrate to all of his citizens what it means to be a 
leader, what it means to lead Russia into the 21st century as a 
country that is moving in a democratic and open direction.
    It is not easy. It will be difficult. But we expect that 
from leaders, to take the difficult road when they have to.
    Senator Smith. Are you seeing any evidence of it, Mark?
    Mr. Levin. Not much. Not much. Thankfully, when Secretary 
Albright was in Moscow, in both meetings that she had with the 
Prime Minister she raised this issue and did not just ask but 
said that the Prime Minister had an obligation to speak out, to 
be out front in this effort, to show that Russia is not headed 
down a road that no one wants to see them travel again.
    What we would like to see is, when he is in the United 
States next month, that he not only give a forceful message 
here but that he send that same message back to Russia.
    There have been too many Russian politicians in the last 
year who have come here and given one message to the United 
States and have either delivered another message when they 
returned or not given that message at all.
    Mr. Zyuganov has been a well practiced expert. He comes to 
the United States. He tries to portray himself as a moderate, 
not just in political terms but also as someone who is ready to 
reform the Soviet economy, and then, when he goes back to 
Russia, it is a whole different message, a whole different 
routine. What we would like to see is some consistency. We hope 
that Mr. Primakov will step up to the plate.
    Senator Smith. Are there candidates out there for President 
that cause you real heartburn?
    Mr. Levin. Well, there are several. One is Mr. Zyuganov, 
who has made very clear that he sees himself as a candidate in 
the year 2000. There are some nationalists who have made 
noises.
    General Makashov has talked about running for Governor in 
one of the regions in Russia. Who knows? He may decide that he 
would like a bigger position.
    There is someone whose name we do not hear too much anymore 
because he has become a figure of ridicule. That is Mr. 
Zhirinovsky, who did quite well in the last election. 
Hopefully, he won't reappear.
    If you look at even the mainstream candidates, we hope that 
they have a message of inclusion, not exclusion, and that they 
are willing to lead. Those would be most notably Mayor Luzhkov, 
Mr. Yavlinsky, General Lebed. These are all potential 
candidates and these are ones who are given better than even 
odds of succeeding.
    Senator Smith. So to date, Mr. Luzhkov has been the one 
quickest off the mark to condemn Makashov?
    Mr. Levin. Well, Yavlinsky has, as has Boris Nemsov. There 
is a pro-democratic element to Russian politics today. 
Unfortunately, it is a very small part of the Russian political 
scene. It is my hope that the reformist groups can get together 
and unify behind one candidate. But that has not been possible 
in the past.
    Senator Smith. Is it because there is a thread running 
through too many of the parties, a threat of anti-Semitism, the 
nationalist and Communist Parties?
    Mr. Levin. They are using anti-Semitism, hatred of Jews, as 
one of the primary parts of their platform.
    Senator Smith. It is written down in their platform?
    Mr. Levin. Oh, through and through. We can provide much 
literature on what the Communists and Russian National Unity 
people and others have circulated throughout Russia.
    Rabbi Goldschmidt has been a victim of some of it.
    Senator Smith. We live in a day of pollsters. Is there 
anybody trying to find out how deeply these feelings run among 
the Russian people?
    Mr. Levin. Yes. There are a number of these. The American 
Jewish Committee 2 years ago--or 3 years ago, David--did a 
study or poll?
    Mr. Harris. If I may, Mr. Chairman----
    Senator Smith. Yes, please, David.
    Mr. Harris [continuing]. As a 501(c)(3) organization, first 
of all, we are prevented from either endorsing or opposing 
candidates for office once declared.
    Senator Smith. I understand.
    Mr. Harris. So I trust you will extend to us congressional 
immunity for anything said by this panel.
    Senator Smith. Oh, we will gladly grant it.
    Senator Biden. I don't think that prohibits you from being 
involved in other countries, does it? You can express a 
preference for that. If you want to express a preference for 
either of us in here, that is all right, too.
    Mr. Harris. As Mark Levin said, we have done polling in 
Russia. To the extent that it is reliable or dependable 
polling, our most recent survey was in 1996.
    What we found there was not a terribly widespread, overt 
anti-Semitism, but what troubled us more was the great number 
of people who answered ``don't know'' to a whole battery of 
questions regarding Jewish issues.
    This led us to the painful conclusion that there is a very 
substantial group of people--over a third of the population--
that either could become indifferent or could be manipulated in 
times of populism. That concerns us greatly.
    If I may, Mr. Chairman, I would make one other comment on 
the discussions that have taken place in the last few moments.
    The United States has an extraordinarily complex bilateral 
agenda with Russia. It includes START II, START III, Kosovo, 
Bosnia, a whole host of issues related to very substantial 
questions of war, peace, security and stability throughout the 
world.
    Our belief is that the U.S. Congress can continue to 
perform a profound service by insuring not only continued 
hearings to expose the situation, as you are doing today, but 
also repeated emphasis on the importance of maintaining these 
issues at or near the top of the bilateral agenda.
    In the final analysis, we need to support democrats--and I 
say that with a lower case ``d'', Mr. Chairman.
    Senator Biden. Oh? Why?
    Mr. Harris. We need to support democrats in Russia and, as 
the democrats themselves in Russia have said, anti-Semitism 
corrodes the country's commitment to democracy. This is why I 
said in my opening comments that the best barometric reading of 
the country is, in fact, the social and political condition of 
the Jews.
    You cannot have relative democracy. If Russia is going to 
go the democratic route, as we hope and pray it will and as we 
have worked toward, then the notion of mutual respect, 
tolerance, and marginalizing extremist views must be constant 
and consistent. It cannot simply occur episodically or out of 
one side of the mouth alone.
    If Russia wants to be a full member of the G-8 and a full 
partner of the United States in addressing these very pressing 
issues on the bilateral agenda, then I think it has to be 
drummed in again and again that there can be no compromise in 
the mainstream of society with anti-Semitism either in its 
overt or its coded expression.
    I fear that there are those Russian leaders today who think 
they can have it both ways, who think they can straddle the 
fence.
    Our task, I believe, is to send the message that you cannot 
straddle the fence on defining issues, on touchstone issues, 
such as this.
    Senator Smith. So hearings, keeping this as one of the 
priority issues are important. What else? Do we need to 
encourage something like hate crimes legislation there? Would 
that be helpful? What else could we do?
    Mr. Harris. Hearings, Senator, are very important. Mark 
Levin and I are colleagues from the trenches of over 20 years 
of Soviet Jewry activism in the bad old days. We have worked 
together and we know that the exposure from hearings like this, 
the interest of Members of Congress who travel to Russia, the 
interventions of Members of Congress meeting with Russian 
officials, and the interest of the media are all essential 
elements in what ultimately is a complex and elusive formula 
for trying to address successfully these questions.
    Again, the message has to come from the highest levels of 
the administration consistently, as it has to date and as we 
trust it will in the future, that there can be no straddling of 
the fence, and that business will not continue as usual if, in 
fact, Russia adopts a kind of truncated democracy, at best, if 
not a reversion to some form of authoritarianism or extreme 
form of nationalism.
    Senator Smith. David--or Mark, maybe you can comment on 
this, too--right now the Jehovah's Witnesses are under assault 
in a trial in Russia. Does it help you to coordinate these 
things with other faiths that are having similar, though not 
identical, experiences?
    Mr. Levin. Mr. Chairman, the history of the Soviet Jewry 
movement has in some ways mirrored the history of the human 
rights movement in what was once the Soviet Union and now is 15 
Independent States.
    We, as a community, have tried very hard to be supportive, 
to work with other ethnic and religious minority groups, 
whether it was the Soviet Union or the Independent States 
today.
    As Rabbi Goldschmidt has said and as David Harris has said, 
the fight against anti-Semitism is also the fight against 
intolerance and injustice for all in Russia. We will continue 
as a community not just to speak out in behalf of our own 
brothers and sisters in Russia but for those others who are 
also having difficulty. That is one reason we have worked so 
closely with you and others on the religious law that was 
passed in Russia as well as with the new Round Table that has 
been created under the State Department's direction.
    Senator Smith. I think that has been very helpful.
    I hope as we go down the road that you remember we did pass 
an amendment, called the Smith amendment, that conditions some 
of our aid to Russia to the whole issue of how this law in 
Russia on religious conscience and association is implemented.
    I know the State Department has strong feelings about not 
suspending financial aid to Russia. On the other hand, this is 
such a threshold, as you say, barometric, issue. We have to 
make some tough calls fairly soon and we hope you will give us 
input because we have to be strong enough to play by the same 
rules if we are going to get anybody's attention.
    If they are going to be violating Helsinki Agreements or 
other international commitments to religious tolerance, then 
there is no point in our trying to fund that kind of conduct or 
bail out efforts that manifest themselves in persecution to you 
or others of other faiths in Russia.
    Mr. Levin. Mr. Chairman, if I may make just one brief 
comment, I think at the same time we have to continue to be 
supportive of those in the Russian Government who want to be 
helpful and cooperative. I think we need to be sensitive, as 
well, to the dilemma that they face in dealing with a 
legislature that does not want to see the creation of a more 
open and democratic society. It is a delicate balance and is 
something that, as a community, we try to be sensitive to in 
working with you and others in Congress, as well as the 
administration.
    Senator Smith. You have said it well. I could not say it 
better myself.
    Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    Mark, you gave a very good nonanswer to the Jehovah's 
Witness question. I was surprised and maybe I could ask the 
Rabbi this question.
    I have not heard of any--let me make sure I have the facts 
right. The law that the chairman talked about, and came to me a 
year ago asking me to help deal with it, the law that the 
Russian Duma passed, was a way to regulate ``nontraditional'' 
religious activity. It is, in a bizarre sense, noteworthy that 
Jews were not considered in that category and were treated as 
``traditional'' for legislative purposes.
    I do not recall hearing the Russian Jewish community 
respond with an organized voice. Maybe they were there; and, if 
so, it would be useful to have on the record that the Jewish 
community vocalized their opposition to this legislation or 
their opposition to the trial of the Jehovah's Witnesses.
    Could you fill us in, Rabbi, on what happened?
    Rabbi Goldschmidt. Sure. I think that my colleagues here do 
remember that I took an official open position against the law, 
the new law on religious freedom and conscience in Russia.
    You are right, Senator, that there were different opinions 
in the community. Some others gave muted consent to this law 
because, in the end, it was the first law which officially 
recognized the Jewish religion and gave it a right of 
existence.
    However, I think that the law is an ugly law and, in the 
end, everybody is going to suffer. All the different religions, 
even those religions mentioned in that law are going to suffer 
from it.
    Senator Biden. I agree with you.
    Rabbi Goldschmidt. This is because little bureaucrats in 
Novosibisk and maybe other places are going to try to implement 
their personal agendas and try to place their own clergy people 
into positions of authority. I hope that one day the law will 
be changed.
    Senator Biden. I compliment you, Rabbi, for your speaking 
out. The reason I bother to mention it is this, and I do not 
say this to be critical. I say it to underscore the fact that 
there is an incredible number of conflicting cross-currents 
that run not only in the Russian community but in the American 
community. I think that the old expression attributed to the 
Three Musketeers could be used here: one for all, all for one.
    I think there is a need. I understand the dilemma. I 
remember speaking to some folks who had an interest in 
religious freedom and the point that you raised, Rabbi, was 
raised with me. ``Joe,'' they said, ``you have to understand 
that this is a dilemma for us.'' This is the first time Russia 
has ever officially recognized Judaism as a traditional 
religion. It puts us in a dilemma.
    Now, I am not suggesting that Russian Jews thought this was 
a good law. I am not suggesting that.
    What I am suggesting is that there is a burden on us--not 
on Russian Jews. The burden is on us to speak out equally about 
oppression of all faiths.
    I know you understand that, Rabbi, and you spoke out in 
Russia, which is a heck of a lot different, and a lot harder 
than what we can do here from behind this protected podium.
    I want to move from that to make another point. But first, 
did you want to make a comment?
    Rabbi Goldschmidt. Senator, with your permission, I would 
like to dwell a little bit on one of the reasons why this law 
was enacted.
    Senator Biden. Please.
    Rabbi Goldschmidt. I do not defend the law. I mention this 
in an article which I wrote pending the acceptance of this law.
    I was inaugurated as the Rabbi of Moscow in 1990. It was 
right after Simchat Torah, which was the main Jewish festival, 
where tens of thousands of Jews gathered on Arkhipova Street.
    The Saturday afterwards, in the middle of the religious 
service in the synagogue, in the main synagogue of Moscow with 
hundreds of people, one American missionary entered the 
synagogue during the service, sat in the front row, and started 
passing leaflets, missionary leaflets, which were being given 
out to worshipers.
    Now I believe that every religion has the right to 
proselytize, to advertise, to talk. However, there are certain 
things which were done, especially by foreign religious 
communities, which create very strong feelings within the 
Russian religions. Again, it is not a defense of the law.
    Senator Biden. I understand.
    Rabbi Goldschmidt. But I think this has to be understood.
    Mr. Harris. Senator Biden, if I may for the record give you 
a very explicit answer to the question that Chairman Smith 
asked, the American Jewish Committee from the beginning 
condemned the draft law. We went to the Kremlin in June, 1997. 
We met with Boris Yeltsin's Chief of Staff. We pressed for 
rejection of the law based on the fact that it would create a 
hierarchy of religions, first of all, and the exclusion of a 
number of religions altogether. And we have stated clearly 
since then that those excluded religious groups, including the 
Jehovah's Witnesses, cannot be ignored in this process. To the 
contrary, their concerns must be addressed and must find 
support in the Jewish community.
    Senator Biden. I know that. I don't question that. I am 
just trying to say that I think it is important we understand 
the complexity of what we are dealing with here.
    This, in no way, suggests that we should cease and desist. 
It only suggests that it should be understood, Rabbi, as it is 
by you, in Russia, among Russian Jews, that, even though the 
historical object of persecution has been your religion, there 
are a number of people who feel equally strongly about the past 
and recent persecution, rejection, or isolation of Christian 
organizations.
    I have no doubt that there were a number of people offended 
when someone came in during the middle of a religious ceremony 
and proselytized about how they would be much happier being a 
Christian. I don't have any doubt about that.
    I am just suggesting to you that--well, I am not suggesting 
anything. I am just making a larger point, that this is a very 
complicated subject.
    This leads me to the second point I wanted to raise, which 
is this. Among your colleagues, among the rabbinate in Moscow 
and Russia, and among, if there is such a thing--because there 
is no average anybody--among the average Jew in Moscow, what is 
the sense of peril they feel? Do they walk down the street 
thinking that they are about to become the object of the 
attention of the government in ways similar to those of their 
grandfathers and grandmothers? Or do they think this is an 
aberration, that the Zyuganovs of the world and others are an 
aberration, one to be concerned about, and to condemn, but not 
to really worry about?
    Give us a description, as best you can, of how you think it 
translates to the people who worship with you in your 
synagogue.
    Rabbi Goldschmidt. You know, there is the famous Russian 
anecdote that goes like this: What is the difference between an 
optimist and a pessimist? The pessimist says things are so bad 
that they cannot get any worse. The optimist says no, they are 
not so bad, they still can get worse.
    I think that the best way to check these attitudes is by 
way of checking on the lines in front of the Israeli Embassy or 
in front of the American Embassy, the number of people wanting 
to emigrate.
    There has been quite a rise in emigration to Israel.
    Senator Biden. There has been a rise?
    Rabbi Goldschmidt. There has been. Compared to the same 
quarter of last year, there has been an increase of about 80 
percent. In some cities there has been 300 percent or 400 
percent more interest in going to Israel. In Moscow itself it 
has risen about 60 percent.
    There is a very interesting dispute between generations. 
The older generation does not like so much our proactive, very 
strong approach against anti-Semites. They lived under Stalin 
and they bent their heads and survived that time. They said 
let's keep our silence and this wave will eventually wash over 
us and we will continue to live here. But the young generation 
in our community believes that we have to fight this new 
tendency to the end.
    Just to add another suggestion to Chairman Smith's question 
of how to approach this problem, I think if there will be 
direct communication between the Attorney General of the United 
States and the Prosecutor General's office in Russia regarding 
law enforcement, enforcement against racial incitement, I think 
this would further very much the enforcement of these anti-
racist laws.
    Senator Biden. Mr. Harris, in the polling you did, did you 
find any distinction among Russians, based upon whether they 
were in urban areas or rural areas, in terms of their response 
to questions relating to their feeling of, or their observation 
of, or their concern for anti-Semitism?
    Mr. Harris. In fact, Senator Biden, as elsewhere where we 
do polling on anti-Semitism, there is a very consistent pattern 
that applies to Russia. Generally speaking, older, less well 
educated, and more rural respondents, whether in Russia or, for 
that matter, in Europe or here in the United States, tend to 
express more anti-Semitic views or more intolerant views 
generally----
    Senator Biden. That would be what I would expect.
    Mr. Harris [continuing]. Than younger, better educated, and 
more urban respondents.
    Senator Biden. The appeal that the Communist Party has the 
most fertile fields upon which their message falls is among 
those very people--at least if you look at it from the 
standpoint of electioneering. That is the base from which most 
of those interested in the party come, although there are 
notable exceptions.
    Were you going to say something, Rabbi?
    Rabbi Goldschmidt. The Communist appeal goes mostly to the 
elderly people. However, the nationalist appeal goes also to 
young people.
    Senator Biden. Yes. That is my next question, and then I 
will stop.
    Is there any way to distinguish--how can I phrase this? If 
you are a Russian politician seeking not the Presidency but any 
office, whether it is a seat in the Duma or whether it is to be 
mayor of a small or large town, the Governor of a province; is 
it a universally accepted notion that it is a ``vote getter'' 
to appeal to anti-Semitism? For example, if I could make an 
analogy, I grew up in a State that was segregated by law. I got 
involved in politics for two reasons--civil rights and the 
Holocaust. They were the two things that drove me to think that 
politics is what I should do with my life.
    When I was growing up, and when you were growing up--though 
I am a little older than you--the South, the American South was 
a place where it was a universally accepted notion, 
particularly in rural districts in the South, that if you were 
hard on the race issue, it was beneficial to you politically. 
It was an accepted notion.
    Has it reached the level in this emerging and hopefully 
democratic nation, that when you make a direct appeal to 
voters, it is thought to be clearly beneficial to make this 
appeal to anti-Semitism--that is, in terms of getting votes, 
just the raw politics of getting votes? Or when it is discussed 
in Russia, among Russian politicians and Russian citizens, is 
it viewed as being a mixed bag?
    I am not phrasing this very well, but do you understand 
what I am trying to get at here?
    Would any of you want to venture an opinion on that?
    Mr. Harris.
    Mr. Harris. I am going to exhibit a characteristic Jewish 
trait by first answering your question with a kind of 
rhetorical question.
    I would, if I could, rephrase the question, Senator, and 
ask whether there is political capital in Russia today in anti-
anti-Semitism. I am not sure that the answer to that question 
is yes.
    This does not necessarily mean, therefore, that there is 
political capital for every party in every corner of Russia or 
in its provinces for an openly anti-Semitic campaign. I don't 
believe that.
    Senator Biden. Well, in typical Irish Catholic fashion, I 
would respond by saying that I cannot think of any time in 
American history where there has been any political capital in 
any anti-anti-prejudice. I can think of no place where anyone 
has ever run and won who has had anti-anti-segregation, anti-
anti-Semitism, anti-anti-Catholicism, or anti-anti-anything as 
his or her major initiative.
    My colleague just whispered something and I believe he is 
wrong. He said what about against David Duke in Louisiana. No, 
that was wrong. That example merely related to raising a whole 
lot of money and embarrassing the State in my view.
    My point is this. I really think that hardly any place ever 
passes that test. But is it something where it is viewed as 
something that you gain by, by doing it?
    Mr. Harris. Well, if I may just finish the sentence--and I 
know the Rabbi wants to enter into this--I believe that for the 
forces of democracy in Russia, there is no capital in this and 
that, ultimately; therefore, this becomes a referendum on 
democracy itself rather than letting it become a referendum on 
the Jews.
    I don't think, for example, that it serves our purposes to 
let it become a referendum on the Jews or anti-Semitism.
    Senator Biden. Oh, I don't either. I am not suggesting 
that.
    Mr. Harris. Nor am I suggesting that that is what you are 
suggesting. I am simply saying that, from our point of view, 
for those candidates who believe in democracy, and who believe 
in trying to insure the irreversibility of what happened in 
1991----
    Senator Biden. There are very few of those folks.
    Mr. Harris [continuing]. There is no capital in anti-
Semitism for them.
    Senator Biden. Right.
    Mr. Harris. For the others, it ranges, I believe, on the 
spectrum from indifference to outright espousal of anti-
Semitism, and that is where the danger zone exists.
    Senator Biden. I will cease, Mr. Chairman, but let me just 
say what I was trying to get at.
    I am trying to figure out not whether or not we should 
speak out, not whether or not we should move, even if it is 
only a single voice in all of Russia appealing to a history of 
anti-Semitism, but, rather, what is the depth of the feeling?
    We notoriously, and constantly, conduct polls in the United 
States of America. When there is a black candidate on the 
Republican or Democratic ticket we find that voters lie to us. 
If you have a poll where there is a black American candidate, 
in either party, running 10 or 12 points ahead on the eve of 
his or her election against a non-black candidate, every 
pollster will tell you to cut that in half. This is because 
people on the phone do not say, ``yes, you are right, I have a 
problem voting for a black man.'' It is not socially chic to be 
anti-anything these days in America. So they will say ``no, I 
am for so-and-so.''
    But I cannot think of any place where a black candidate has 
ever run equal to what his polling numbers have been.
    Conversely, if a white politician on the eve of an election 
asks a good polling organization--and you know the good ones as 
you use them--it comes out usually pretty darn close to the 
election results.
    I am wondering how accurate this polling data is about 
Russians saying they do not have a problem. That is why I was 
trying to figure out other ways--and I have been very imprecise 
in searching for them--to sense the depth of the currency in 
dealing with, in calling up the bogeyman of anti-Semitism as a 
rallying point, as a unifying point, as a way to get support 
and votes.
    I will end there. If you want to comment, that's fine.
    Mr. Levin. I would but very briefly.
    If you look at the last election, in many ways Russians are 
no different than Americans and others in various countries 
when it comes to responding to pollsters or surveys.
    There were a number of candidates who we would consider 
beyond the pale who were not supposed to do very well. In fact, 
they did do well.
    If you look at the Presidential figures of the last 
election, it was like the stock market of a few months ago. It 
was up and down. I think that is also going to continue.
    Also, we are dealing with a country where in some ways 
polling surveys are relatively new.
    Mr. Harris. And still untrusted.
    Mr. Levin. You know, they think: what is going to happen if 
I answer a question in a certain way? I think it is going to 
take a number of years before we get beyond that.
    Senator, just to finish up very quickly, our concern as a 
community is the same: how deep does this go and how will it be 
utilized by different politicians?
    I think the Rabbi can speak to this better, but it varies 
from region to region in Russia. I think there are areas that 
we, as a country, can concentrate on. There are areas that are 
virulently nationalistic and who send some of the worst 
politicians to the Duma. There are others that are more 
progressive and then there are some that are in the middle.
    I think we need to begin to look at those regions that are 
straddling and try to find them out and try to help those who 
want to move in a positive direction.
    Senator Biden. For example, it would be nice to know--I 
have a theory, I have a view, though I cannot sustain it--of 
why Yeltsin the second time around felt compelled to say 
something. Did he feel compelled to say something because we 
were responding? Did he feel compelled to say something because 
he thought, from an electoral standpoint, it made him look like 
more of a democrat and helped him? Why did he feel compelled to 
respond? What was the reason?
    I don't expect anybody to have the answer to these 
questions. But I think it matters in terms of the efficacy of 
what we are able to do, not whether we should speak out, not 
whether we should condemn, not whether we should consider 
sanctions, but how. The ultimate dilemma we have here is going 
to be this.
    For example, I have introduced the Russian Democratization 
Assistance Act of 1999. We always give bills such fancy titles. 
The bottom line is I think one of the ways to deal with anti-
Semitism is to go along with what the polls say, that the more 
educated you are, the less likely you are to be anti-Semitic. 
Therefore, the more open people are and the more exposure they 
have to the West, and the more students you have from Russia in 
the United States going to universities, the more exchanges we 
have, I think that is one small, tiny way in which to do this. 
But that runs head on into what my instinct is, which is if you 
are going to engage in this rabid anti-Semitism, I don't want 
to deal with you, I am going to cutoff any assistance, I am 
going to cutoff aid.
    It is the dilemma you pointed out, Mark.
    And so, in order to be able to act as an intelligent, and 
in my view, as a responsible legislator, and make the judgment 
whether to use the carrot or the stick, it is important to 
know--and I do not know--whether or not it is deep, how 
pervasive it is, and whether or not there are alternatives that 
exposure in Russia generates.
    I will end with this. For example, a friend of ours from 
Texas is Senator Gramm, a very conservative fellow and a good 
friend of mine. We were debating 8 years ago the crime bill. We 
would go at each other pretty well on the issue.
    One day I slipped and called him in public what I jokingly 
called him in private--``Barbed Wire Gramm.'' This is because 
of prevention programs, and I saw him wanting more ``barbed 
wire.'' I joked with him about it. I slipped on the floor and 
said one day ``Barbed Wire Gramm,'' and I immediately 
apologized.
    Well, he said on the floor no, there was no need to 
apologize.
    Afterwards, he told me off the floor and, subsequently, 
publicly has said look, that helps me, coming from you.
    Now, it may very well. What I am trying to figure is the 
politics of this, how it works in Russia, in order to give me 
some insight into whether or not withholding or engaging is 
more likely to bring about the result that you have dedicated 
your life to and that we are committed to.
    I don't expect an answer. I was just trying to explain why 
I was asking these questions.
    Thank you, Mr. Chairman.
    Senator Smith. Go ahead, if you have a comment.
    Rabbi Goldschmidt. I will try to be very short in my 
answer. Every politician wants to get elected eventually. 
Definitely anti-Semitism, as has been shown in the past, will 
let you gather a certain segment of the population to vote for 
you.
    Now the problem is that, since Russia is going through a 
crisis, politicians are basically trying to get elected by 
saying, I would like to make your life better than it is right 
now. There are a few ways of doing that. There is one way of 
doing that which says, for example, which some liberal 
politicians will say: we are going to take care of the economy. 
We are going to rebuild the social welfare structure.
    Some nationalists will say we will get the Soviet fleet in 
the Crimea back to Russia. And some others will say let's get 
the Jews out of Russia.
    So every politician who will think of using an anti-Semitic 
platform always has to weigh the pros and the cons.
    If the rabid anti-Semitic politician knows that by making 
these statements, first of all, he will not be a member of any 
committee within the parliament, he will not be invited to any 
reception of any foreign embassy in Moscow, that when he wants 
to visit the United States or any other European country he 
will not get a visa, this will make a politician think twice or 
three times before he will use anti-Semitism or any other kind 
of rabid racism against Caucasians or against other minorities. 
He will have to weigh the pros and cons of doing so.
    I don't think that the average person, whether in 
Novosibirsk or any other far out-reaching region in the far 
east, where they are struggling, will want to elect a Governor 
who cannot travel to any other country.
    Mr. Harris. Could I also just make a closing comment, Mr. 
Chairman?
    Senator Smith. Certainly.
    Mr. Harris. First, I wonder if, in addition to my full 
submitted statement, I might submit to you the results of our 
1996 survey and have that included as part of our submission.
    Senator Smith. It is so ordered.
    [The information referred to has been retained in the 
committee files.]
    Mr. Harris. Second, I would like to emphasize what has been 
stated here and what I sought to state in my opening comments. 
One of the reasons we need to take so seriously the current 
situation is because it comes against a backdrop of, literally, 
hundreds of years of a pattern of persecution. I indicated some 
instances in my fuller submission, but we have seen a pattern 
and, therefore, it behooves us to take very seriously what is 
going on against the backdrop of that historical context.
    Third, Mark Levin will remember that in the early 1980's, 
there were bilateral wheat talks going on. One of those talks 
took place in London.
    We had spoken with the U.S. negotiator prior to his travel 
to London for those talks. We spoke to him about the Soviet 
Jewry issue. At the time, emigration was virtually nonexistent.
    He, in the course of the talks during a recess, took aside 
his Soviet counterpart and said to the Soviet counterpart: I 
want you to know of the great concern about the Soviet Jewry 
issue in the United States and how important this is to 
Americans of all faiths. The Russian counterpart, without 
missing a beat, looked him in the eye and said to him: Sir, 
does this affect our wheat talks?
    The American blinked and said: It does not, but I wanted 
you to know about the concern in any case.
    In a sense, I have always remembered the exchange because 
in that moment the American blinked. What I am suggesting, 
Senator Biden, is that we have to fashion an approach which 
strengthens Russian democracy, which strengthens the 
institution of civil society, but which at the same time has 
zero tolerance in the government or the institutions of the 
country for anti-Semitism.
    We may never be able to extinguish entirely anti-Semitism, 
neither there nor anywhere else. But we have to make clear that 
in our bilateral dealings we will not accept anti-Semitism as 
part of the framework of mainstream society.
    Senator Biden. Mr. Chairman, if I may interrupt, the 
question here is how do you measure that. Do you measure that 
in the statements of individual politicians who do not hold 
national office? Or do you measure it in terms of legislation 
actually passed and condoned?
    Let me give you an example. You were of great help and one 
of the best statements delivered on the expansion of NATO was 
by you in front of this committee.
    Mr. Harris. Thank you.
    Senator Biden. I, prior to the time we pushed this through, 
went to Poland. I met with everyone in Poland about expansion. 
I was asked to speak at the University of Warsaw. I spoke to a 
large crowd comprised of mostly intellectuals and professors. 
It was a very large crowd. The audience was made up of all who 
were enthusiastically supportive of the expansion of NATO and 
Poland's inclusion. I was asked the question, as one of the 
lead people on this issue. And not because I am so smart or 
anything--I was pushing the issue, I was asked with all the 
Polish media there and CNN, the following question: Is there 
anything that could stop our admission?
    I said yes, there is one thing--the rise of anti-Semitism 
in Poland and the insensitivity that was expressed in the last 
government. Then I named the issues.
    Well, they were absolutely offended and outraged and 
stunned that I would say that. But immediately after that, you 
heard a number of enunciations. You never heard so many pro-
Jewish statements coming out of Poland before. I mean this.
    Now, you know the area.
    Mr. Harris. I do.
    Senator Biden. So I understand your point. But I think you 
are missing mine.
    My point is this. Let me give you this example. Let's 
assume that there is no question that General--and I always 
mispronounce his name, the anti-Semite----
    Mr. Harris. Makashov.
    Senator Biden [continuing]. Makashov, who is not running 
for President, there is no question that you can gain a 
constituency in Russia that can keep you in the Duma, by 
appealing to raw anti-Semitism, and make you a national figure. 
There is Lepin in France. We could name certain folks on 
different subjects in Israel. We could name them in the United 
States. We could name them all over the world.
    So there is no question that you can be an anti-Semite, an 
anti-Catholic, an anti-black, an anti-Asian, an anti-anything, 
and find a constituency like we find on the media now. All you 
have to do now is get 1.2 percent of the market, and you can 
keep some of these stupid programs on television.
    I'm serious, because there are 200 of them. I am not 
joking. This is an economic fact of life.
    A political fact of life is you can have someone like the 
general in fact survive in a country where there may only be a 
small percentage of people who are buying on to his message, 
but he will stay in power in his office.
    What if God came down and said look, I can guarantee you 
here is the deal: this is not a repeat of the past 500 years; 
this is not the beginning of the past; so speak out against it, 
talk about it, but do not condemn the whole country because you 
will find a backlash. The backlash would be that you are 
assigning, ascribing to the whole country the views of this one 
anti-Semite. He or she is in power but represents only a 
distinct minority.
    I think it is much worse than that, by the way. But that 
would lead you to one conclusion as a policymaker.
    If, on the other hand, you reach the conclusion that just 
bubbling beneath the surface was this almost yearning to return 
to the days of pogroms, literally and figuratively, that would 
be a totally different prescription one would come to as a 
policymaker.
    So I think we need to do two things. One is to speak out, 
even if it is only one person. I pointed out to my double 
doctor staff person here, Dr. Haltzel, who has forgotten more 
about this subject than I know, a very simple thing. He has a 
memo here where he says to me: and you know what, they did not 
condemn what he said and the Duma did not stop him from saying 
it. I pointed out that he could say the same thing in the 
United States and the first amendment would say that he can say 
it.
    So if our test is, if you say it and it is not condemned or 
declared illegal, we don't have laws like you have, Rabbi. It 
is not a question of immunity in our Duma. Any American can go 
out there and hold a press conference and say, by the way, I 
think every Jew is a Yid and I think every such and such. He 
would be protected by free speech. You know that and I know 
that.
    So the measure here is what I am trying to get at. It is 
clear to me that when you put Jehovah's Witnesses on trial you 
have crossed the line. It is clear to me when you pass a law 
that says only certain religions can be recognized that you 
have crossed the line.
    We can quantify this.
    It is also clear to me that, when the President of a 
country makes assertions or a national figure makes anti-
Semitic or racial assertions, we should say you are not welcome 
here. But I think we have to build a case as to what the 
measure is, that we are going to use, to determine when we do 
not trade, when we do not continue to participate economically, 
when we stop having joint exercises, when we do all the things 
that are the things that flow from using the stick here.
    I think that is a different measure. So I don't want to be 
confused here. We should speak out. I will speak out. We should 
do this. For the next step, as to when you take aggressive 
action--which I believe is close by, by the way, me, 
personally--I want to be able to make the case differently than 
that I identify 2, 5, 10, 20 politicians in the Duma who make 
these outrageous statements.
    We need to build a case. Maybe there is too much of the 
lawyer in me.
    Anyway, that is what I was driving at.
    Senator Smith. Thank you, Senator.
    Are there any concluding comments from anyone?
    Mr. Levin. Senator, I think I can speak for my colleagues 
to say thank you again. There is a struggle going on now in 
Russia, a struggle for the soul of that vast middle and in 
which direction they will go. I don't think we, let alone 
anyone else, has the answer. But what I can say for certain is 
that we, as a country, need to speak, speak out, speak out 
forcefully, and work with those elements in the Russian society 
who want to see their country move forward. We will continue to 
do that.
    Senator Biden. I want to thank you again, Mr. Chairman.
    Senator Smith. I thank you, Senator.
    Senator Biden. Our silence would be deafening and you are 
preventing that from happening.
    Senator Smith. Well, we will keep speaking, keep holding 
hearings, keep working with you to make sure that this 
barometer does not get any more emblematic of storm clouds on 
the horizon. We want to drive those away.
    Thank you all. We are adjourned.
    [Whereupon, at 3:50 p.m., the subcommittee adjourned.]
                            A P P E N D I X

                              ----------                              


            Prepared Statement of Hon. Joseph R. Biden, Jr.
    Mr. Chairman, I would like to begin by thanking you for holding 
this hearing. As you demonstrated last year in your efforts to convince 
the Russian State Duma to amend its law on officially approved 
religions, your own actions are guided by a firm moral compass. I 
applaud your continuing engagement against persecution wherever it may 
occur.
    To some people the topic of anti-Semitism in Russia might not seem 
a likely one for this subcommittee's first hearing in the 106th 
Congress. But you know, and I know, that over the centuries the 
phenomenon of anti-Semitism has become a sickening metaphor for man's 
inhumanity to man and, thus, a topic of universal significance.
    Sad to say, anti-Semitism has a long history in Russia. In the 
nineteenth and early twentieth centuries the Tsarist government forced 
the vast majority of the Jewish population of imperial Russia to live 
in an area called the ``Pale of Settlement'' in what is now eastern 
Poland and southwestem Russia.
    High ranking government officials blamed the Jews for the 
assassination of Tsar Alexander II in 1881, and in the succeeding 
decades officially tolerated, well-armed gangs called the ``Black 
Hundreds'' carried out murderous pogroms against the defenseless Jewish 
population.
    The anti-Semites also added clever propaganda to their arsenal. In 
1903, elements of the Tsarist secret police concocted a fraudulent 
document entitled ``The Protocols of the Elders of Zion,'' ostensibly 
reporting discussions among Jewish elders of plans to subvert Christian 
civilization and erect a world Zionist state. The ``Protocols'' were 
translated into several languages and widely disseminated and--sad to 
say--widely believed. They were finally exposed as forgeries in 1921 by 
The Times of London, but they remain a staple of anti-Semitic 
propaganda to this day.
    The Bolshevik Revolution of 1917 gave hope of equal treatment for 
all nationalities, including the Jews. Given the persecution the Jews 
had endured under the Tsars, it was not surprising that several of the 
original Bolshevik leaders were of Jewish origin.
    Unfortunately, Joseph Stalin, the winner in the power struggle 
after Lenin's death, came to embrace anti-Semitism among his many 
pathologies. Ukrainians--millions of whom perished in Stalin's 
collectivization of agriculture--bore the brunt of the dictator's 
insane policies.
    Soviet Jews were singled out for harsh, if less genocidal 
persecution. When Stalin died in March 1953, he seems to have been 
preparing anti-Semitic show trials as a follow-on to his transparently 
preposterous ``Doctors' Plot'' allegation. According to that bit of 
grotesque Jew-baiting, a group of medical doctors, most of them Jewish, 
had been paid by the United States to get rid of Soviet politicians.
    Mr. Chairman, the history of Jewish life in Russia has certainly 
not been an exclusively negative one. In this century Russian Jews have 
distinguished themselves in the professions, in government service, in 
the military, in science, music, and the arts and letters. According to 
public opinion data, a majority of the ethnic Russian population is not 
anti-Semitic. Since the collapse of the Soviet Union there has, in 
fact, been a renaissance of Jewish religious and cultural life in 
several Russian cities.
    It is, therefore, distressing to learn of the recent upsurge in 
anti-Semitic scapegoating in Russia.
    Last November, one Albert Makashov, a retired communist general and 
leader of the 1993 rebellion against the legally elected government of 
Boris Yeltsin, blamed Russia's economic collapse on, in his words, the 
``yids.'' Such a statement, even from a communist dinosaur, is 
appalling, but perhaps even more shameful was the attitude of the State 
Duma, which refused to repudiate it. In fact, Gennadi Zyuganov, leader 
of the Communist Party, elaborated on the theme with the following 
pithy analysis:
    ``Zionism has in reality revealed itself as one of the varieties of 
the theory and practice of the most aggressive imperialistic circles 
striving for world supremacy.''
    I wish Mr. Zyuganov had made these remarks before I met with him in 
Moscow two years ago.
    Not to be outdone, Alexander Lukashenko, the neo-fascist head-case 
who runs Belarus, charged that Jewish financiers and political 
reformers--imagine that, political reformers--were responsible for the 
creation of the criminal economy.
    Perhaps most unbelievably, in a country where twenty-seven million 
citizens perished as a result of Hitler's invasion and massacres, an 
avowedly fascist party, called Russian National Unity, complete with 
black uniforms and Nazi salute, has appeared on the scene.
    All this pathetic scapegoating, Mr. Chairman, certainly casts a 
pall over our relations with Russia.
    But we must persevere. In that spirit, I have just introduced the 
``Russian Democratization Assistance Act of 1999.'' This legislation 
would significantly expand selected existing educational and 
professional exchanges with Russia and explore the creation of a 
Russian foundation for democracy.
    This anti-Semitic filth, in a sense, makes it more important than 
ever to ``let the sun shine in'' and expose the next generation of 
Russians to democracy and mutual understanding.
    Depending on differing data, there are still between 600,000 and a 
million-and-a-half Jews in Russia, and they must, once again, cope with 
the forces of darkness. Perhaps a stand by the United States Senate 
against this renewed anti-Semitism will be of help to them and to 
Russia as a whole. I hope that this hearing is the first step on that 
road.
    Thank you, Mr. Chairman.

                                 ______
                                 
                 Prepared Statement of Leonard Glickman
    Mr. Chairman and distinguished members of the Subcommittee, the 
Hebrew Immigrant Aid Society (HIAS) is the international migration 
agency of the American Jewish community for the rescue and resettlement 
of refugees and immigrants. Since its founding in 1880, HIAS has 
assisted in the resettlement of more than four million Jewish and non-
Jewish refugees from all over the world in the United States and 
elsewhere. In recent years, under contract with the Department of 
State, this agency's efforts have been focused primarily upon assisting 
Jewish refugees from the former Soviet Union (FSU) escape from a 
threatening environment to reunite with family members in this country.
    HIAS wishes to express its appreciation to the Subcommittee for the 
timeliness of this hearing and for the opportunity to convey our 
concern for the protection of Jews and other minorities in Russia. We 
would also like to bring to your attention the perplexing development 
that, as anti-Semitism and intolerance have dramatically increased in 
Russia in the last few months, so have the denial rates of Jewish 
applicants applying to the U.S. Immigration and Naturalization Service 
(INS) for refugee status in Moscow.
    To view the human rights situation for Jews in Russia today, it is 
crucial to begin with their historical experience, for it is through 
this prism that the Jewish population views itself, and others view 
them. The deeply rooted beliefs that prompted the persecution and 
killing of Jews in Tsarist Russia, through the anti-Semitic campaigns 
of the Stalinist and Khrushchev eras, are not as easily swept aside as 
political leaders and institutions, and persist whether officially 
sanctioned or not.
    For over three hundred years, the Jewish population in the former 
Soviet Union has been seen as the other, or the scapegoat, at both the 
governmental and grassroots level--particularly in times of political, 
economic and social upheaval. It is in the context of this historical 
reality and the current dramatic deterioration in Russia that we view 
with increasing concern the recent expression of hatred toward Jews by 
government officials and others.
    The increasingly hostile situation faced by religious and ethnic 
minorities in Russia caused the Commission on Security and Cooperation 
in Europe (CSCE) to convene a hearing on the subject on January 11. The 
CSCE hearing record is replete with statements and news articles 
clearly indicating that, while President Yeltsin has made some attempt 
to address neo-fascism and anti-Semitism in Russia, leading local and 
national officials continue to make public statements blaming the 
current crises on Jews and other vulnerable minorities.
    For example, politicians such as Parliamentarian Albert Makashov, 
Communist Part leader Gennady Zyuganov, and Krasnodar Region Governor 
Kondratenko openly, and without rebuke, blame ``Zionists,'' ``Yids,'' 
and ``Jews'' for the decline of Russia. In a statement submitted to the 
Commission, the White House expressed that it ``has been outraged by 
the recent spike in anti-Semitic statements by leading Russian 
politicians . . .'' Moreover, witnesses at the hearing, including Dr. 
Yelena Bonner (Chair of the Andrei Sakharov Foundation) and Ludmilla 
Alexeyeva (Chair, Moscow Helskinki Group), both lamented that there is 
no ``rule of law'' in Russia to protect vulnerable ethnic minorities 
and refugees. Indeed, the hearing record contains numerous reports of 
increasing incidents of crimes--which go uninvestigated, unsolved and 
unpunished--targeting Jews and other ethnic minorities.
    More specifically, in the last few months, members of the Russian 
Parliament have made openly racist and anti-Semitic statements that 
were purposefully not admonished by that body: ``Jews should be rounded 
up and jailed,'' and ``It's time to expel all `yids' from Russia'' are 
comments from Parliamentarian Albert Makashov, who has also called on 
the government to restore quotas on the number of Jews who can live in 
Russia. In other parts of Russia, pamphlets have been widely 
distributed calling for Jews to be expelled and to ``annihilate the 
`kikes'.'' Mark Albrecht of the World Evangelical Fellowship reports 
that the situation is potentially explosive and reflects ``dangerous 
demagoguery.'' And, it is not only those of Jewish origin who are 
subjected to such treatment. For a considerable time now, individuals 
and families of ``darker skin'' from the Caucasus area have been 
indiscriminately rounded up in Moscow on unfounded grounds of suspicion 
of terrorism. Moscow authorities have also consistently demonstrated 
open hostility toward third world refugees and asylum seekers, 
including subjecting them to extortion, beatings, destruction of UNHCR 
documents, and summary deportations.
    We are disturbed that, as anti-Semitism and intolerance have 
dramatically increased in Russia in the last few months, so have the 
denial rates of Lautenberg category applicants applying to INS for 
refugee status in Moscow. In fact, the denial rate of Jews applying for 
refugee status, which ranged from 3% to 6% from FY1990 to FY1996, 
jumped to 11% in FY1997, then to 30% for the first half of FY1998, and 
has now soared to almost 50%. Moreover, requests for reconsideration 
(appeals), submitted to INS by applicants who have been denied refugee 
status, are generally taking more than one year for INS to adjudicate.
    In 1989, after a policy change caused a similar dramatic increase 
in the denial rate of Soviet Jews and Evangelical Christians applying 
for refugee status through the program, Congress responded by including 
the ``Lautenberg Amendment'' in the 1990 Foreign Operations 
Appropriations Bill (P.L. 101-167, Section 599D). This legislation 
required the Immigration & Naturalization Service (INS) to take into 
account, when adjudicating refugee claims, the longstanding history of 
persecution faced by certain groups, including Jews from the USSR. The 
Lautenberg Amendment basically restored the earlier policy for 
adjudicating refugee applications from Soviet Jews, and most of the 
applications which had been denied by INS were reopened and reversed. 
Originally set to expire in September of 1990, the Lautenberg Amendment 
has been extended through September 30, 1999.
    The INS claims the sudden increase in denial rates is not due to 
any policy change. Yet they have not been able to explain why, as anti-
Semitism has intensified in the FSU, the denial rate for Jews applying 
to the United States for refugee status has soared in recent months 
from around ten percent to nearly fifty percent. HIAS urges the 
Congress to extend the Lautenberg Amendment beyond September 30, 1999, 
and hopes you will join us to hold INS accountable for implementing the 
Amendment and carrying out the letter and spirit of the refugee 
program--to rescue those in harm's way and to protect others who have a 
well founded fear of persecution.
    Thank you.

                                 ______
                                 
            Prepared Statement of Rabbi Pinchas Goldschmidt
    Honorable Chairman:
    I would like to thank the U.S. Senate and the Chairman of the 
Committee on Foreign Relations, the Hon. Senator Jesse Helms, as well 
as the subcommittee chairman Senator Gordon Smith, for inviting me to 
testify on behalf of the Jewish community in the Russian Federation.
    I have been privileged to serve the Russian Jewish Community during 
the last ten years as the rabbi of Moscow, and since the organization 
of the Russian Jewish Congress I have been responsible for foreign 
relations of the organized Jewish community of Russia, the Russian 
Jewish Congress.
    The Russian Jewish Congress has been established in 1996 by a joint 
initiative of the spiritual and financial leaders of our community and 
has over forty-eight branches in all of Russia. It is the prime 
umbrella group of the estimated over one million Russian Jews and is 
dealing with fundraising, political representation, anti-defamation, 
and the development of the community. If I would draw a parallel to the 
United States, I could say that it is a combination of a ``Conference 
of Presidents of Major Jewish American Organizations'' and the ``United 
Jewish Appeal''. The bead of the Russian Jewish Congress is its 
president, Mr. Vladimir Goussinsky, a well-known business tycoon and a 
champion of the free press.
    The Russian Jewish Congress has had some major achievements during 
the few years of its existence. First of all, it united the whole 
community, secular as religious. Secondly, it became a powerful voice 
within Russia against anti-Semitism and for democracy. At the inaugural 
of the Holocaust Memorial Synagogue on Victory Hill in Moscow during 
the early days of September last year, President Boris Yeltzin attended 
the ceremonies. He was the first Russian Head of State to attend a 
Jewish event during this century. Nevertheless as time has progressed 
we experienced a new wave of anti-Semitism as presented in the 
following paragraphs. However, for the first time there was a strong 
response within Russia, from its Jewish community and subsequently from 
the Russian government.
                              introduction
    Faltering political and economic conditions in Russia today have 
brought fear and uncertainty to much of the population. President 
Yeltsin's poor health and the frequent change of prime ministers have 
led to a general lack of confidence in the government. At the same 
time, nationalist groups and the Communist party appear to be gaining 
strength.
    Due to the Asian crisis and by failing to implement needed economic 
reforms, the government has permitted both the financial and political 
crises to persist. The August 1998 devaluation of Russia's monetary 
unit, the ruble, sank the exchange rate and caused many Russians to 
lose their savings. It also attached a tremendous price tag on imports, 
including food and other consumer goods. The emergency measure of 
printing excess money to pay back wages and pensions also caused 
inflation and frustration among the population to soar. Meanwhile, a 
bad harvest this year--considered the worst in decades--has Russians 
concerned about food supplies lasting throughout the winter.
    The worsening of the economy and the rise of political anti-
Semitism did caused a sharp rise of emigration to Israel. Mrs. Alla 
Levy, the representative of the Jewish Agency for Israel in Moscow, 
reported an increase of 80%, compared to the same period last year, a 
result of fear of mounting anti-Semitism.
                       anti-semitism of the left
    The Communist Party to a large extent engineered the resurgence of 
political mainstream anti-Semitism after the crisis of August 17th. The 
KPRF (Communist Party of the Russian Federation) under the leadership 
of Mr. Gennady Zuganov has sought to use the fact that some ministers 
in the last government were of Jewish descent to blame the economic 
crisis on the Jews. This tendency towards anti-Semitism and racism can 
be understood in the wider context of the transformation of the 
communist parties of Eastern Europe, which had to find new political 
platforms. While most communist parties in central and Eastern Europe 
have evolved in general to the social democratic model or to other 
forms of left wing activism, in Russia, the communist party has turned 
to nationalism which in fact makes it a National Socialist party.
    The right wing of the party, represented by General Albert Makashov 
\1\ and Mr. Victor Ilyuchin \2\, accused the Jews of genocide against 
the people of Russia \3\. When liberal lawmakers tried to censure 
Makashov on November the 4th, the KPRF with one exception defended 
Makashov's statements.\4\ In reaction to General Makashov's October 
comments and the Duma's failure to censure him, President Yeltsin 
requested a statement from Communist Party Leader Gennady Zyuganov 
regarding his party's position on anti-Semitism. Mr. Zyuganov's 
response reiterated the accusations made by the most anti-Semitic 
members of his party. In the form of a letter to the Ministry of 
Justice and the National Security \5\ Chief, Zyuganov's response 
contained harsh anti-Semitic references reminiscent of the old Soviet 
era and served only to heighten concerns about anti-Semitism in Russia. 
Zuganov stated \6\ that he believes ``that too many people with strange 
sounding family names mingle in the internal affairs of Russia'', a 
clear reference to the powerful Jews in the economy and in the 
government.
    On the local level, Mr. Kondratenko, the governor of Krasnodar, a 
ranking member of the KPRF, has voiced open anti-Semitic statements 
against the ``Jewish-Masonic conspiracy'' \7\ . Following that, 
leaflets were being handed out in Krasnodar, calling for a progrom 
against the Jews \8\ . The proliferation of radical anti-Semitic racist 
literature and journals in Russia is growing. This literature was 
available in the not so recent past at any metro station in Moscow, 
however, Lushkov responded with a crackdown on the dissemination of 
fascist symbolism in the city arresting transgressors and confiscating 
material. In other areas of the Russian Federation anti-Semitic 
material is readily available on the streets.
    Mr. Vladimir Goussinsky, President of the Russian Jewish Congress, 
the umbrella group of all Jewish organizations in Russia, has addressed 
himself to the Prosecutor General of the Russian Federation, Mr. Yuri 
Skuratov, asking him to initiate criminal proceedings against Governor 
Kondratenko and Duma Deputy Makashov. The senior advisor of the 
Prosecutor General, Mr. Y. Zacharov, answered in his letter of the 28th 
December 1998 that an expert commission would have to analyze the 
nature of the statements of Makashov. The commission is to be comprised 
of members of the Russian Academy of Sciences, historians, 
psychologists, sociologists, linguist and philologists. The letter 
further states that after having been investigated, Makashov denied 
that he had made threats against the Jewish community, denied 
incitement of racism and of religious intolerance, just the opposite he 
stated, he had received many threatening phone-calls himself. A similar 
letter was received from the General Prosecutor's office regarding 
Governor Kondratenko of Krasnodar. Up until today the government as not 
initiated proceedings against the governor.
                       anti-semitism on the right
    The rise of the Neo-Nazi movement is also worrisome. On the far 
right of the political spectrum, Barkashov's ``Russian National Unity'' 
\9\ with thousands \10\ of para-military troops \11\ gives much cause 
for concern. They planned to hold their annual convention in Moscow, 
but Moscow Mayor Yuri Lushkov \12\ banned the meeting \13\, and fired a 
police official who failed to break up a march of the Russian National 
Unity movement \14\. Interior Minister Sergei Stepashin said he would 
sack chiefs of police departments if they did not oppose neo-Nazi 
rallies and demonstrations. \15\ President Boris Yeltzin has repeatedly 
denounced anti-Semitism and formed a special commission to fight the 
rise of anti-Semitism in the country. \16\
    The Moscow prosecutor's office did revise its earlier decision and 
opened criminal proceedings against Barkashov, who had voiced threats 
against Mayor Yuri Luzhkov. On the other hand communist deputies in the 
Duma have railroaded the motion to prohibit the use of Nazi symbolism, 
which are used by fascist groups.
                                violence
    Besides incidents involving the desecration of cemeteries and the 
attacks of skinheads against religious Jews in the Moscow area, we can 
pinpoint the following recent events which unsettled the feeling of 
security of the Jewish community:

  <bullet> October 15, in Nizhny Novgorad, a city only recently seen as 
        a stronghold of liberal government, Chief Rabbi Zalman Yoffe 
        was severely beaten by unknown assailants; no arrests have been 
        made.
  <bullet> November 19, in St. Petersburg, Ms. Galina Staravoitova was 
        assassinated, startling Russia and human rights activists 
        worldwide. She was one of the leading voices of democracy in 
        Russia and a true friend to the Jewish community. She herself 
        was married to a Jew. In fact, shortly before her death, she 
        aggressively spoke out against General Makashov's rhetoric and 
        criticized her colleagues for their failure to censure him. 
        While there is no evidence that her murder was an act of anti-
        Semitism, it indeed underscores the political chaos and 
        rampant, unchecked corruption raging through Russia today. 
        During her funeral in St. Petersburg, the nationalist, anti-
        Semitic group ``The Black Hundreds'' marched in front of the 
        parliament in Moscow in support of General Makashov.
                         popular anti-semitism
    A recent poll sheds light on the popular Russian reaction towards 
the trend of political anti-Semitism. An independent poll taken in 
Moscow in October by the All-Russian Center for the Study of Public 
Opinion revealed that a majority of Russians agree that anyone 
insulting the national dignity of the Jews should be prosecuted with 
all the severity of the law and that it is necessary to guarantee that 
Jews continue to enjoy equal rights in access to institutions of higher 
learning. At the same time, however, the poll demonstrated that of 
1,509 respondents, 52% would respond negatively to Jewish social-
political organizations and parties operating in Russia, while 34% 
believe records should be kept of Jews holding leading positions in 
Russia and that quotas should be kept on such numbers.
    Anti-Semitism has always existed in Russia in different forms. A 
major cause of past excesses endangering the physical well being of the 
Jewish community resulted in general from government sponsored anti-
Semitism. The Communist-dominated parliament's failure to censure 
General Makashov for his anti-Semitic statements, and Mr. Zyuganov's 
subsequent letter, are frightful steps backwards to state sponsored 
anti-Semitism.
                            recommendations
    The existence of anti-Semitism, and the failure of authorities to 
speak out, to investigate, to prosecute, is a valid barometer of the 
ill health of the society. It speaks of the extent of fear, envy and 
distrust of the population, and measures the potential for political 
upheaval. It measures the dangers such a society poses to its citizens, 
its neighbors and its international partners. It is at least as 
important a measure of democratic viability and reliability as data 
used to track crime, or missiles, or environmental contamination or 
trade or other economic and financial indicators.
    In the West, Zuganov tries to picture himself as a liberal social 
democrat, while at home he pursues national socialist policies. The 
Jewish community of Russia is of the opinion that until Zuganov and his 
cohorts disassociate themselves from the virulent anti-Semitism in 
their party voiced during the last few months, the United States of 
America and any other country should not invite these members of the 
Duma for inter-parliamentary discussions.
    During the latest outburst of anti-Semitism the Russian Jewish 
Congress mobilized its sister organization in Europe and in the United 
States, and the government of the State of Israel. The European Jewish 
Congress approached the European Parliament and the Council of Europe, 
which in turn have taken a strong stand against Makashov and his 
supporters. The Council of Europe decided to appoint a special observer 
for Russia on the issue of anti-Semitism. We intend to testify in front 
of the European Parliament the 9th of March in Strasbourg. The 
Conference of Presidents of Major American Jewish Organizations with 
the National Conference on Soviet Jewry mobilized members of the House 
and of the Senate who wrote a strong letter to the Chairman of the 
Russian Duma, Mr. Gennady Zeleznyov. The World Jewish Congress in turn 
approached the United Nations Human Rights Commission with this issue.
    Inside Russia, after repeated requests from the Russian Jewish 
Congress, the General Prosecutor's office finally has agreed to open a 
criminal investigation against Makashov under article 280 (1), which 
prohibits racial incitement. Although the prosecutor's office might 
move forward with an indictment, it is not likely that the communist 
dominated Duma will revoke the immunity of General Makashov. Political 
pressure from the United States of America might finally convince the 
Duma to revoke his immunity, and persuade the Prosecutor's office to 
further pursue all those who broke this law.
    Honorable Chairman, Honorable Senators, We would like again stress 
the importance of the ongoing battle for the voice of democracy and 
tolerance in Russia. This pressure yields results, even if belatedly. 
Only last week did Mr. Zyuganov publicly on national TV distance 
himself from the ``Russian National Unity'' organization of Barkashov. 
We are sure that this statement was a result of mounting international 
pressure on the communist party. We believe also that this pressure 
should continue. Kondratenko sort of apologized to the local Jewish 
community in Krasnodar expounding on the distinction between Jews and 
Zionists. Makashov however, has announced his bid for the governor-ship 
of one of Siberia's areas and talk about a presidential bid is 
circulating in Moscow.
    The order of the day is to marginalize anti-Semitic political 
forces, and forge a large national consensus of Russian political, 
communal and religious leaders who will stand strong against those 
political forces, which want to split the country with racism and anti-
Semitism. The United States of America and the Democracies of Europe 
should in their dialogue with the leaders of Russia stress the 
importance of a strong stand against racism, which is crucial to the 
wellbeing and internal stability of the Russian Federation.
Notes
    \1\ General Albert Makashov, a Communist Party deputy in the 
Russian parliament, made a series of statements throughout October 1998 
calling for the extermination of all Jews in Russia and blaming them 
for the country's economic problems.
    General Makashov played a major role in the street violence of 
October 1993. At that time, he urged crowds of his supporters to seek 
out and beat Jews.

    \2\ Victor Ilyukhkin, chairman of the parliament's security and 
defense committee, accused President Yeltsin and the Jews who he 
claimed are ``exclusively'' members of his ``inner circle'' of 
committing ``genocide'' against the Russian people.

    \3\ Memorable Quotes:

          I will round up all the Jews and send them to the next world!
                                    Albert Makashov

          Who is to blame? The executive branch, the bankers, and the 
        mass media are to blame. Usury, deceit, corruption, and 
        thievery are flourishing in the country. That is why I call the 
        reformers Yids.
                                    Albert Makashov

          [Zionism is] more frightening than fascism because it 
        operates from the flanks, clandestinely and secretly.
      Communist Member of Parliament, Gennady Benov

          Hands off Makashov!
          To the grave with all Yids.
          I will round up all the Jews and send them to the next world.
Pro-Communist demonstrators during the November 7th 
   commemoration of the anniversary of the Russian 
                                         Revolution

    Quotes from: (Boston Globe, November 8, 1998), (Zavtra, October 20, 
1998), (New York Times, November 8, 1998), (Boston Globe, November 8, 
1998)

    \4\ Despite the fact that both President Boris Yeltsin and Mayor of 
Moscow Yuri Luzhkov condemned his statements, a mildly worded 
parliamentary motion to censure him was rejected by a vote of 121-107. 
Eighty-three of the Communist Party's members in the Duma voted against 
censure, one abstained, and 45, including Communist Party leader 
Gennady Zyuganov, did not vote at all. Only one Communist deputy, Duma 
Speaker Gennady Seleznev, voted for censure. Rather, the parliament 
adopted a vaguely worded resolution, condemning ethnic hatred, with no 
reference to Jews, anti-Semitism or General Makashov. The Communist 
party has also failed to condemn General Makashov or to discipline him. 
Instead, the General has found a number of vocal supporters within his 
party and among Russia's many nationalists.

    \5\ Statement by the Chairman of the Central Committee of the 
Communist Party of the Russian Federation (December 29, 1998):

          Every time when the policy of the ruling regime is a failure 
        it resorts to the old and tested method of escalating anti-
        Communist hysteria. A distinguishing feature of the present-day 
        campaign of lies and slander, which was launched by electronic 
        mass media, became its defiantly Russo-phobic character. The 
        thesis about ``Russian fascism'' and a ``red-brown'' threat, 
        and about ``anti-Semitism'' as an allegedly official stand 
        taken by the Communist party has been in the picture again.
          The aim of this campaign is obvious: to divert the attention 
        of society from the catastrophic situation in which the country 
        is and from those who are truly to blame for it, to provoke 
        anti-Jewish sentiments among the masses and to channel the 
        growing social protest of the working people into a dead-end 
        way--along the line of interethnic conflicts.
          I am convinced that these plans are doomed to failure in the 
        end. But eyes should not be closed to the fact that 
        provocateurs succeed now and then in achieving the results they 
        desire. In response to the Russo-phobic hysteria half-baked 
        statements addressed to Jews were voiced by some Communists, 
        statements which run counter to the provisions of the Program 
        of the Communist Party of the Russian Federation and the 
        decisions of the Plenary Session of the Central Committee on 
        the problems related to interethnic relations.
          These statements are based on an unjustified and harmful 
        combination of the problem concerning Zionism as a political 
        phenomenon and the Jewish problem. It is, above all, Zionism 
        itself, which declares that it is a ``purely national'' concept 
        of gathering Jews in the land of their origin, that is 
        interested in such a combination. If the aims of Zionism were 
        really exhausted by this, there would be no additional 
        problems. I want to remind you that it is the Soviet Union, 
        when recognizing the right of the Jewish people to national and 
        state self-determination, that was active in its efforts in the 
        past to help the establishment of the State of Israel but, 
        certainly, not to the detriment of the vital interests of the 
        Arab people of Palestine.
          However, Zionism manifested itself really as a variety of the 
        theory and practice of the most aggressive imperialist circles, 
        which strive for world supremacy. In this respect it is related 
        to fascism. The only difference between them is that Hitlerite 
        Nazism acted under the mask of German nationalism and strove 
        for world supremacy openly, while Zionism, when it appears 
        under the mask of Jewish nationalism, acts in a concealed 
        manner, using, among other things, someone else's hands.
          Fascism and Zionism are the most sworn enemies, above all, of 
        those peoples, whose national sentiments and prejudices they 
        exploit. Fascism and Zionism are non-national and profoundly 
        anti-popular in their essence. When World War II was coming to 
        a close, Hitler sought to drag after himself the entire German 
        people into the grave, denying them the right to existence.
          The great experience of the struggle of our Motherland 
        against fascism serves us as a lodestar in the struggle against 
        various forms of imperialist aggression. On the part of the 
        peoples of the Soviet Union the struggle against German fascism 
        was the national liberation Patriotic war in the real sense of 
        this term. But it was not in any way the struggle against the 
        German people. Suffice it to recall the words that ``Hitlers 
        come and go, whereas the German people remain,'' which were 
        voiced at the time of a mortal danger for the Soviet people on 
        November 7, 1941, from the main rostrum of the country. It is 
        not out of place to recall the fact that when the war was 
        coming to a close, in the spring of 1945, Ilya Ehrenburg, a 
        member of the Jewish Anti-Fascist Committee, tried to appeal 
        for a national revenge upon Germans, he was rebuffed severely 
        and corrected on the pages of the Pravda newspaper: ``Comrade 
        Ehrenburg is getting all mixed up!''
          The present-day struggle against Zionism is not and cannot be 
        in principle a struggle against the Jewish people or the State 
        of Israel. We have never identified notions ``a Jew'' and a 
        ``Zionist''. When standing for the friendship and fraternity of 
        the peoples of Russia, we believe that all problems, which 
        arise in this sphere, must be settled peacefully during a 
        respectful and constructive dialogue. It is such Russo-Jewish 
        dialogue that we have suggested more than once. Communists are 
        ready to take part in it and on both sides for that matter 
        because our party is internationalist by its composition and 
        ideology.
          Any forms in which chauvinism and national intolerance 
        manifest themselves, no matter from whom they might come and 
        what grounds might be used to justify them, are incompatible 
        with communist convictions. These forms include the 
        manifestations of Judeo-phobia, which insult the national 
        dignity not only of Jews but also of all peoples of Russia. 
        Therefore, views and pronouncements, which equate Jews with 
        Zionists, should be condemned as foggy, because they 
        disseminate in great numbers bourgeois and philistine 
        prejudices, mask the class essence of Zionism and thereby make 
        the struggle against it more difficult.
          The idea of establishing in a legislative way a ``percent 
        norm'' of representation of various national and religious 
        communities among governmental authorities should also be 
        recognized as being erroneous. Though this principle was given 
        written expression in the Constitutions of some countries, for 
        example, Lebanon, practice shows that interethnic peace and 
        reconciliation are ensured not in this way. In a democratic 
        country, which we want to see Russia, an equal participation of 
        all communities among the organs of government is a matter 
        related to a free choice of the people, to the government's 
        wisdom and to the tact of the top leaders.
          At the same time, the Jewish community should also be more 
        definite on several problems--first and foremost, on the 
        problem concerning its attitude to Zionism. The spread of 
        Zionist ideology among Jews is in any case not the fault but is 
        the misfortune of the Jewish people. The only point is whether 
        Jews intend to continue to be reconciled to such a situation 
        when their national sentiments serve now and then as a screen 
        for Zionist ideology.
          We believe that Jews, like the representatives of any 
        Diaspora, have an inalienable right:

          <bullet> to leave Russia for Israel, their historical 
        Motherland, or for any other country;
          <bullet> to recognize Russia as their only Motherland, to 
        live and work for its benefit within the composition of the 
        Jewish community as an equal member of the multinational people 
        of Russia;
          <bullet> to assimilate in regard to nationality, culture and 
        language into the Russian people or any other people of Russia.

          No one has only the right, being a citizen of Russia, to 
        regard it as an alien ``country of residence'' and to be in it 
        an ``internal emigre'', acting to the detriment of its 
        interests and in favour of another country or an international 
        corporation. There is no right either to be an instrument in 
        the hands of Zionism. Not a single country in the world can 
        reconcile itself to such doings and is obliged to put an end to 
        them by all lawful means.
          Communists did not invent this problem, which really exists. 
        Our people are not blind. They cannot but see that the 
        Zionization of the governmental authorities of Russia was one 
        of the causes of the present-day catastrophic situation in 
        which the country is, of the mass impoverishment and extinction 
        of its population. They cannot close their eyes to the 
        aggressive and destructive role of Zionist capital in the 
        disruption of the economy of Russia and in the misappropriation 
        of its national property. They are right when they ask the 
        question as to how it could happen that the key positions in 
        several branches of economy were seized during privatization 
        mainly by the representatives of one nationality. They see that 
        control over most of the electronic mass media, which wage a 
        destructive struggle against our Fatherland, morality, 
        language, culture and beliefs, is concentrated in the hands of 
        the same persons.
          I am convinced that the citizens of all nationalities living 
        in Russia will be wise enough to examine these problems in a 
        quiet and balanced way without yielding to provocations and 
        without letting themselves be carried away by nationalistic 
        intoxication. Among the people there is a growing awareness 
        that the criminal course pursued by the anti-popular and non-
        national oligarchy, which seized power, underlies all their 
        present-day misfortunes. It is only the restoration of the 
        sovereignty of the people and a resolute change in the social 
        and economic course that will ensure the revival and prosperity 
        of Russia and all its multinational people.
                                          Zyuganov,
                                         December 23, 1998.

    \6\ Mr. Zyuganov, while reprimanding Mr. Makashov for his 
``intemperance,'' stated in a press conference that there were not 
enough ethnic Russians on television, a thinly veiled allegation that 
there are too many Jews in prominent positions. He also stated that if 
Jews feel insulted by Mr. Makashov's statements, they can participate 
in a ``public dialogue'' between Jews and Communists that would include 
a discussion of incidences in which the Russian people have also been 
insulted and humiliated.

    \7\ For the past two years, residents of Krasnodar have been 
bombarded with his anti-Semitic rhetoric on television, at youth 
forums, and at mass rallies where he regularly charges Zionists with 
brutal oppression of ethnic Russians, and blames Jews for the political 
and economic problems plaguing Russia. ``Today we warn that dirty 
cosmopolitan brotherhood: You belong in Israel or America,'' 
Kondratenko said at a Russian Victory Day rally in March 1997.
    More recently, in March 1998 at a youth congress in Krasnodar he 
addressed his audience with a two hour speech dedicated to the ``Jewish 
Question.'' Elected on a platform of Russian patriotism, since becoming 
Governor, Kondratenko has transformed this position into one of ultra-
nationalism, declaring that ethnic Russians are the only ethnic group 
which belongs in the region. Kondratenko recently won re-election in 
Krasnedar which will keep him in power until the year 2000.

    \8\ In December 1998, residents of a number of apartment buildings 
in the Kuban region of Krasnodar found leaflets circulated by a local 
fascist group in their mailboxes with the message, ``Help save your 
dear, flourishing Kuban from the damned Jews-Yids! Smash their 
apartments, set their homes on fire! They have no place on Kuban 
territory . . . Anyone hiding the damned Yids will be marked for 
destruction the same way. The Yids will be destroyed. Victory will be 
ours!'' The leaflets also called on voters to support Governor 
Kondratenko, known for his anti-Semitism, for president. However, 
citizens reacted by immediately reporting the leaflets to local 
authorities as an incident of anti-Semitism.

    \9\ A leader of Russian National Unity, Igor Semyonov, was 
sentenced in 1998 to two years in prison for inciting hatred toward 
Jews and people from the Caucasus Mountains. At the trial, a local 
Communist leader denied the massacre of over 33,000 Jews at Babi Yar in 
1941 and a Russian Orthodox Priest testified that according to the 
Talmud, Jews ``kill children, gather blood'' and use it to make matzah. 
Although the judge sentenced Semyonov, no objection was made to the 
anti-Semitic testimonies used at the trial.
    \10\ Estimates of Barkashov's numbers range to upwards of 100,000--
possibly a high number--but, as Yevgeny Proshechkin, head of the Moscow 
Anti-Fascist Center notes, ``it's not the numbers that are so 
dangerous; it's the ideology.'' Noting the comparison to the Weimar 
Republic, he claims, ``a few thousand armed and ideologically prepared 
people always manage to beat a multimillion-people majority.''

    \11\ In Kstovo (Nizhny Oblast) on November 22, the local official 
TV station, which reports to the mayor, favorably described the ties 
between local law enforcement agencies and the RNE (Russian National 
Unity), which they characterized as a ``normal public organization'' 
that will form a brigade to help police enforce law and order in the 
streets. The local FSB head described these fascists as ``normal young 
men who want to see more public order in the city.''
    In October in the northwestern Russian town of Borovichi, the town 
was plastered with stickers proclaiming that ``Jews are rubbish'' and 
depicting a hand dropping a Star of David into a trash can.
    For many months, Barkashovites from Moscow have been organizing 
teenagers there, engaging in a campaign of death threats aimed at Jews. 
A recent TV program showed RNE leaders meeting with military 
recruiters, planning collaboration.

    \12\ THE GOVERNMENT OF MOSCOW DECREE
                                             December 15, 1998 #951
          Appeals have been sent to the government of Moscow by the 
        Council of Public Organizations of Veterans of War, Labor, and 
        Military Service of the Central Administrative District, the 
        Moscow Anti-Fascist Center, the Moscow Helsinki Group, the 
        public fund ``Glasnost'', the All-Russian Public Movement ``For 
        Human Rights'', and a series of other public organizations and 
        movements which have protested the planned convocation of a 
        ``Russian National Unity'' congress in Moscow on December 19, 
        1998. The protests were motivated by the fact that the RNE is a 
        pro-fascist organization that propagates ideas of ethnic 
        superiority, that its activities are offensive to the memory of 
        those who died in World War Two, and that the above-mentioned 
        congress threatens the rebirth of fascism.
          Having examined these appeals, as well as numerous media 
        publications dealing with the activities of the RNE, in 
        accordance with Point 3, Article 17 and Point 2, Article 29 of 
        the Constitution of the Russian Federation and Point 3 of 
        Presidential Decree Number 310, dated March 23, 1995, ``On the 
        Means of Coordinating the Activities of Government Agencies in 
        the Fight against Manifestations of Fascism and Other Forms of 
        Political Extremism in the Russian Federation,'' the government 
        of Moscow decrees:

          1. A ban on the public-political organization ``Russian 
        National Unity'' holding a congress or any other form of public 
        meeting in the city of Moscow.
          2. The Governmental Department of Internal Affairs (GUVD) of 
        the city of Moscow, along with prefects of the administrative 
        districts, will guarantee the implementation of Point 1 of this 
        decree.
          3. The Premier of the Government of Moscow takes upon himself 
        the implementation of this decree.

                                  Yuri. M. Luzhkov,
                       Premier of the Government of Moscow,
                                                            Moscow.

    \13\ Alexander Barkashov, leader of Russian National Unity (RNE), 
spoke threateningly against Luzhkov and city authorities on December 
16, after the Moscow government on December 15 banned an RNE congress 
in town.

    \14\ Feb. 04, 1999--(Reuters) Moscow's police chief fired two 
senior officers on Wednesday for their failure to stop a weekend march 
by ultra-nationalists wearing Nazi-style armbands.
    ``From now on tough measures will be applied to those who breach 
Moscow city's laws on public gatherings and marches,'' police chief 
Nikolai Kulikov told a news conference.
    He said the head of one of Moscow's 10 territorial police divisions 
and the head of the unit that was monitoring the march had been fired 
and a number of others had been reprimanded.
    He did not clarify in what way the several dozen supporters of 
ultra-nationalist Aleksander Barkashov's Russian National Unity (RNE) 
had broken the law on Sunday.
    Police, facing criticism from the mayor for failing to stop them, 
had previously said they had had no legal grounds for doing so. Russian 
television showed a policeman apologizing to some RNE members on Sunday 
for having briefly detained them.
    The sackings came a day after top Russian security officials, 
including the justice and the interior ministers, pledged a crackdown 
on political extremism.
    The RNE is a semi-military organization which calls for a 
dictatorship based on the dominance of ethnic Russians. Its members 
sport distinctive black uniforms, wear a symbol strongly reminiscent of 
the swastika and make Nazi-style salutes.

    \15\ ``If any of Interior Ministry department chiefs does not 
adequately react with extremist actions, I will not have them work (in 
the police),'' Stepashin said at a session of the presidential 
commission for the struggle against political extremism on Tuesday.

    \16\ Whatever these troubled economic and political times suggest 
for Russia's future, during the past year the Yeltsin administration 
has made various efforts to work against the nationalist and extremist 
forces in their nation. In an historic address to the nation on the 
occasion of the 57th anniversary of Nazi Germany's invasion of Russia 
in June 1998, President Yeltsin warned for the first time of an 
increasing threat to Russia by the active neo-Nazi movement. In 
addition, throughout the year he and other senior members of his 
government have condemned a number of manifestations of anti-Semitism 
in Russia.
    In July 1998 the President again spoke out against neo-Nazism by 
criticizing his Justice Minister for allowing extremist and ultra-
nationalist groups to receive official certification in Russia. He said 
that the Russian Constitution prohibits registration of such groups. In 
September he attended an historic ceremony for the opening of the 
Holocaust Memorial and Synagogue in Moscow and called for a moment of 
silence for those who perished in the Holocaust, while Moscow Mayor 
Yuri Luzhkov presented an 18th century Torah scroll to the synagogue.
    In November 1998, following the Duma debate on General Makashov's 
anti-Semitic remarks which ended in a failure to condemn the General, 
President Yeltsin issued a public statement against extremism and 
ethnic hatred. His top security and defense officials also met at that 
time with the President's Chief of Staff to discuss the growing threat 
of anti-Semitism and extremism in Russia.

                                 ______
                                 
                 Prepared Statement of David A. Harris
    Mr. Chairman, I wish to express my deepest appreciation to you and 
your distinguished colleagues for the opportunity to appear here today 
on the pressing topic of the state of anti-Semitism in Russia.
    I have the privilege of representing the American Jewish Committee, 
with which I have been associated since 1979. Much of that time, given 
my own background in Soviet affairs and knowledge of the Russian 
language, has been devoted to matters affecting the USSR and the post-
Soviet successor states.
    The American Jewish Committee, our nation's oldest human relations 
agency, was founded in 1906, and today comprises more than 75,000 
members and supporters across the United States. We have thirty-one 
offices in major American cities and eight overseas posts.
    We are in close contact with Jews throughout the Former Soviet 
Union, travel regularly to Russia, commission research and polling on 
conditions affecting Russian Jews, and meet frequently with high-level 
Russian officials to discuss issues of concern to the Russian Jewish 
community, as well as Russia's relations with the U.S. and the 
countries of the Middle East.
    Indeed, our organization was founded in response to the pogroms of 
Jews in Czarist Russia at the beginning of this century. On January 8, 
1906, five leading American Jews sent out a letter to fifty-seven of 
their colleagues inviting them to a meeting in New York. The letter 
read in part:
    ``The horrors attending the recent Russian massacres and the 
necessity of extending to our brethren a helping hand in a manner most 
conducive to the accomplishment of a permanent improvement of their 
unfortunate condition, have, with remarkable spontaneity, induced 
thoughtful Jews in all parts of the United States, to suggest the 
advisability of the formation of a General Committee, to deal with the 
acute problems thus presented, which are likely to recur, even in their 
acute phases, so long as the objects of our solicitude are subjected to 
disabilities and persecution owing to their religious belief.''
    Later that year, the American Jewish Committee was founded. Its 
mission statement read: ``The purpose of this Committee is to prevent 
infringement of the civil and religious rights of Jews, and to 
alleviate the consequences of persecution.''
    Two months later, in establishing a Press Bureau, the AJC leaders 
declared with prescience: ``For the prevention of massacres of Jews in 
Russia, no means can be considered so effective as the enlightenment of 
the people of the Western world concerning real conditions in Russia . 
. .''
    These AJC leaders were right on target at the time; their approach 
is equally valid today. Human rights danger zones require outside 
monitoring and exposure, lest potential perpetrators believe they can 
act with impunity and benefit from the world's indifference.
    Senators, I wish to commend you. You are carrying on a remarkable 
Congressional tradition, dating back to the last century, of examining 
Russian attitudes toward, and treatment of, Jews.
    In the earliest known case, on June 11, 1879, Congress passed a 
joint resolution that cited, laws of the Russian Government that ``no 
Hebrew can hold real estate'' and condemned Russia because a 
naturalized American Jewish citizen was prohibited from gaining title 
to land in Russia he had purchased and paid for.
    As another illustration, in 1890 the House of Representatives 
passed a resolution requesting President Benjamin Harrison ``To 
communicate to the House of Representatives . . . any information in 
his possession concerning the enforcement of prescriptive edicts 
against the Jews in Russia, recently ordered, as reported in the press 
. . .''
    And on December 13, 1911, the Senate Committee on Foreign Relations 
held a hearing on S.J. Res. 60, ``a joint resolution providing for the 
termination of the treaty of commerce and navigation between the United 
States of America and Russia concluded at St. Petersburg December 18, 
1832.''
    I mention this particular 1911 Senate hearing for three reasons.
    First, it illustrates the direct and long-standing involvement of 
this Committee on Foreign Relations in matters affecting the treatment 
of Jews in Russia.
    Second, the outcome of the hearing was that the Foreign Relations 
Committee voted unanimously to adopt the resolution because of the 
Russian government's refusal to issue entry visas to American citizens 
of the Jewish faith, in contravention of the 1832 bilateral commercial 
treaty. Within days, the measure had been approved overwhelmingly by 
both Houses of Congress and, on President Taft's instructions, the U.S. 
ambassador to Moscow, Curtis Gould, Jr., was instructed to advise 
Russia of the termination of the 1832 treaty.
    This marked the first--though not the last--time Congress would 
establish a direct linkage between Russia's human rights record and 
America's economic policy toward that country. The landmark Jackson-
Vanik Amendment, passed over sixty years later by Congress, linked the 
extension of American most-favored-nation (MFN) trade status with the 
emigration policy of Communist countries.
    And third, that 1911 hearing was addressed principally by the 
leadership of the American Jewish Committee, including Judge Mayer 
Sulzberger, president of AJC at the time, and Louis Marshall, Esq., one 
of the nation's most eminent jurists. While honored to follow in their 
footsteps, I am dismayed that the issues that preoccupied them in the 
early years of this century remain with us, in one form or another, as 
the century closes.
    One hundred and twenty years after Congress first acted regarding 
Russia's mistreatment of Jews--and eighty-eight years after the 
American Jewish Committee first appeared before this very Committee on 
the same subject--we gather here once again to examine the condition of 
hundreds of thousands of Jews residing in Russia who are living in an 
uncertain environment.
    In the brief time allotted to me, let me emphasize just a few 
central points, some of them implicit in my introductory comments.
    To begin with, anti-Semitism in Russia has a tragically long 
history. Mistreatment of Jews in Russia can be documented for hundreds 
of years.
    There was the intolerance and hostility of the Russian Orthodox 
Church toward Jews and Judaism over the centuries, as well as the 
government decree in 1727 that ``all Jews found to be residing in the 
Ukraine and in other Russian towns shall be forthwith expelled beyond 
the frontier and not permitted under any circumstance to re-enter 
Russia.''
    There was the restricted residency of Jews in the so-called ``Pale 
of Settlement'' beginning in the late eighteenth century, as well as 
the wave of pogroms spurred by the accession to the throne in 1881 of 
the anti-reformist, militantly nationalistic Czar Alexander III, after 
the assassination of his father, Alexander II. This situation continued 
for twenty-five years through the reign of the equally reactionary 
Nicholas II.
    There were the anti-Semitic attacks by both Communist and anti-
Communist forces during the post-1917 Soviet civil war, Stalin's 
ruthless purges, and the determined Communist campaign to extinguish 
all vestiges of Judaism as a religion while restricting the vertical 
mobility of Soviet Jews.
    For hundreds of years, then, waves of violence, blood libels, 
restrictive or punitive decrees involving education, employment, 
residency, and military service, and other forms of repression have 
been all-too-familiar features of the Russian landscape. As a result, 
countless Jews were killed and millions emigrated, especially to the 
United States.
    Still, many remained. Russia was, after all, their place of birth, 
their home, and all that was familiar to them.
    Precisely because of the centuries-old pattern of persecution 
punctuated, it must be noted, by occasional periods of hope and 
relative calm, depending largely, if not entirely, on the ruler of the 
day--there is a need to take very seriously manifestations of anti-
Semitism in Russia at any time, not least today. Put most starkly, we 
ignore the lessons of history at our peril.
    The situation today for Jews in the Russian Federation is 
extraordinarily complex.
    On the one hand, Jewish life in the post-Communist era is 
miraculously re-emerging, notwithstanding the relentless, 70-year-long 
effort of the Communist apparatus to uproot and destroy it. Synagogues, 
schools, community centers, and a myriad of other Jewish institutions 
are developing, and contacts between Russian Jews and Jews beyond 
Russia's borders are frequent and unrestricted. The presence here on 
our panel of Rabbi Goldschmidt of Moscow is but one testament to this 
remarkable development.
    Yet, at the very same time, the intractability of the country's 
economic and political travails should be a cautionary note for us, as 
should its fragile democratic system.
    Given the widespread impoverishment and the glaring income gap 
between the wealthy few and the rest of the population, persistent 
unemployment and underemployment, widespread pessimism about the 
future, endemic corruption, and mounting criminal violence, Russia's 
democratic experiment is not assured of permanence--especially against 
the backdrop of Russian history, which lacks any sustained encounter 
with democracy, the rule of law, and civil society.
    Instead, the fear persists that this embryonic democratic effort 
could yield--perhaps even in the upcoming elections--to a more 
nationalistic, authoritarian, or Communist regime, whose rallying cry 
might well include the alleged responsibility of the Jews or, in only 
slightly more veiled terms, the ``non-Russians,'' for Russia's economic 
stagnation, loss of empire, or domestic turmoil. In a word, 
scapegoating.
    It has worked before in Russian history; it could well occur again.
    The recent disturbing anti-Semitic incidents, whether by spokesmen 
of the extreme right or by the left in the Communist-dominated Duma 
(Parliament) or, for that matter, outside Moscow--most notably in 
provinces like Krasnodar, whose governor, Nikolai Kondratenko, elected 
in 1996, is an unabashed anti-Semite--should give us serious pause. The 
National Conference on Soviet Jewry, represented here today by its 
executive director, Mark Levin, and of which the American Jewish 
Committee is a founding member, has closely monitored these and other 
incidents.
    Again, history has shown the enduring appeal of anti-Semitism as a 
political weapon in this part of the world, especially during periods 
of transition, when a country like Russia is convulsed by dramatic and 
unsettling change.
    This is one such period. Should political, economic, and social 
conditions in Russia improve, Jewish vulnerability could ebb. If, 
however, conditions either continue to stagnate or decline, the Jews 
might well be blamed, as they have in the past, for Russia's daunting 
difficulties--accused of profiting at Russia's expense or attacked as 
outsiders disloyal to ``Mother Russia.''
    Second, the best antidote to anti-Semitism in such situations would 
be clear, consistent, and unambiguous statements from Russia's leading 
political figures and by spokesmen for the country's key institutions, 
coupled with appropriate action to relegate anti-Semitism to society's 
margins.
    Anti-Semitism may not be entirely extinguishable, but the aim must 
be to deny it acceptability in mainstream society. In other words, 
there can be no compromise with anti-Semitism or anti-Semites in the 
legitimate political discourse and debate of the country. Anything 
less, history again has taught us, sends the dangerous message that 
anti-Semitism is in fact a negotiable political issue.
    Come elections, will there be Russian politicians with the courage 
to denounce unequivocally those who openly or in coded language ``play 
the anti-Semitic card'' as part of their campaign platform, and instead 
appeal to the higher instincts of the Russian people? One can only hope 
so.
    Will there be a critical mass of the Russian people prepared to 
reject any such crude charges against the Jews? Again, one can only 
hope so.
    But we are entering an election period when there will be a 
temptation to sound the nationalist theme, that is, to pander to a 
disaffected electorate looking for simplistic explanations for the 
country's deeply rooted difficulties, or to conjure up ``enemies''--
internal or external--who allegedly undermine the country's well-being. 
This may prove dangerous.
    Some key Russian institutions, especially the Russian Orthodox 
Church, could, if they choose, play a constructive role in this regard 
Until now, the church's role has been at best equivocal. The Russian 
Orthodox Church, which occupies a privileged place in the religious 
life of Russia, has never undergone the kind of soul searching and 
moral and historical reckoning regarding its relations with the Jews 
that the Catholic Church and many Protestant churches, to their credit, 
have initiated in the second half of this century. Such an undertaking 
is overdue.
    The Russian educational system surely could do much more to promote 
concepts of tolerance and understanding among the country's many and 
diverse nationalities and religious groups, including the Jews.
    During the Communist era, when I had an opportunity to spend 
several months in the USSR teaching in elementary and secondary schools 
in Moscow and Leningrad, an essential element of the prevailing 
ideology, however factually untrue, was the so-called ``brotherhood of 
Soviet nationalities.'' Since it was a given, there was no need to 
teach it, or so the conventional Communist wisdom went.
    Russia today desperately needs to teach its young people the 
importance, especially for a democratic society, of the genuine 
equality of all its citizens, be they of Jewish, Chechen, Gypsy, 
Armenian, or other origin, and of the consequent need to appreciate and 
respect the culture and contribution of each group.
    The American Jewish Committee has launched a curriculum review 
project to examine what is taught about Jews, Judaism, and the 
Holocaust in post-Communist societies. The studies on Poland, the Czech 
Republic, and Slovakia have already been issued. A study on the Russian 
educational system is currently under way (as are studies in Ukraine 
and Lithuania). I would be pleased to submit the Russian study to this 
Subcommittee when it is completed.
    Are new laws needed in Russia to deal with anti-Semitism and other 
forms of hate? It is a difficult question to answer, in part because 
our American Bill of Rights enshrines freedom of speech, however 
repugnant it may sometimes be, as an essential tenet of democracy. At 
the same time, there are already several laws on the Russian books 
respecting incitement and empowering the government to prosecute 
publishers of extremist publications, including those deemed to be 
anti-Semitic. To date, however, even these laws have seldom been 
invoked, which may be interpreted benignly as just another 
manifestation of the country's current inefficiency, or more darkly as 
a calculated unwillingness to confront the country's hatemongers.
    Mr. Chairman, I conclude as I began. In 1907, the American Jewish 
Committee understood that ``For the prevention of massacres against 
Jews in Russia, no means can be considered so effective as the 
enlightenment of the people of the Western world concerning real 
conditions in Russia. . . .''
    I would add that today, unlike 1907, we in fact have the 
possibility of pursuing two parallel strategies to insure the well-
being of Jews in Russia.
    The first is the recognition that democracy and democratic 
institutions are the best assurance that Jews--indeed all who live in 
Russia--will be governed by the rule of law, not the rule of whim. We 
have an extraordinary opportunity, previously unimagined or 
unimaginable, to help transform Russia into a full-fledged member of 
the family of democratic nations. Needless to say, we cannot as a 
nation do it alone, nor, as our experience since 1991 has demonstrated, 
are we yet assured of success. But to shrink from the challenge at this 
stage would be historically irresponsible.
    And second, we as a nation must continue to make clear to Russia 
and its leaders that, as they look to Washington for assistance, 
support, and recognition of their international standing, unstinting 
respect for democracy, human rights and the rule of law is central to 
our bilateral agenda with Moscow, never a footnote or an afterthought. 
And history has in fact taught us that the political and social 
condition of Jews in a country such as Russia is just about the most 
accurate barometric reading of the overall state of democracy, human 
rights and the rule of law.
    As the leaders of the Moscow Anti-Fascist Centre wrote in an open 
letter in 1996: ``We are deeply convinced that anti-Semitism in Russia 
threatens not only Jews.
. . . The growth of anti-Semitism threatens the foundations of Russian 
democracy, the rights and freedom of the Russian people itself and 
other peoples of Russia.'' In other words, for Russia to make the full 
transition to genuine democracy, as we pray it will, means, among other 
things, exorcising the demon of anti-Semitism from its midst.
    In this regard, the Congress and this Subcommittee in particular 
have a vitally important role to play in addressing the condition of 
Jews in Russia. Judging from the impressive historical record 
stretching back 120 years, and exemplified by hearings such as this one 
today, I am confident that the Congress will do so with characteristic 
distinction, unswerving principle, and relentless commitment.
    Thank you, Mr. Chairman.

                                 ______
                                 
                  Prepared Statement of Mark B. Levin
    Mr. Chairman, it is an honor to appear before your subcommittee, on 
behalf of the National Conference on Soviet Jewry (NCSJ), and I want to 
begin by recognizing your commitment and that of many of your 
colleagues to the issue of anti-Semitism in Russia and elsewhere in the 
former Soviet Union. That commitment is evident not only in the timely 
scheduling of this hearing, but in the ongoing efforts of so many on 
Capitol Hill. These efforts have had and will continue to have a 
definite impact on the prospects for pluralism and democratization in 
Russia.
    My testimony today will focus on the recent anti-Semitic statements 
espoused by Communist Party officials in Russia. This sustained 
rhetoric has created a tense atmosphere and growing fear of anti-
Semitism in an already precarious environment. The situation requires a 
sustained response: a strong voice in support of democracy and civil 
freedoms, and staunch opposition to those opposed to minority rights 
and freedoms. This is a large task that requires the collective efforts 
of the U.S. government and human rights organizations.
    The NCSJ and the Anti-Defamation League (ADL) recently co-authored 
a White Paper, ``The Reemergence of Political Anti-Semitism in Russia: 
A Call to Action,'' which we presented to Secretary of State Madeleine 
Albright before her trip to Moscow last month. The ADL, a member agency 
of NCSJ, has asked to be associated with my testimony today, and I 
offer a copy of that document of this hearing to include in the record 
of this hearing. I would also ask that the full list of our national 
member agencies be inserted into the record.
    The NCSJ has served as the voice of the organized American Jewish 
community on issues of Soviet Jewry for the past 27 years. Comprising 
nearly 50 national organizations and over 300 local federations, 
community councils and committees nationwide, the NCSJ mobilizes the 
resources and energies of millions of U.S. citizens on behalf of the 
Jews of the former Soviet Union. It is my privilege to appear today on 
the same panel with two of our close partners in this work, Chief Rabbi 
Pinchas Goldschmidt of Moscow and Executive Director David Harris of 
the American Jewish Committee.
    The NCSJ works actively with the National Security Council, 
Department of State, the Helsinki Commission and Members of Congress in 
fulfilling its mandate to secure the rights of Jews living in the 
former Soviet Union. We continue to support U.S. efforts to aid this 
region and believe that an active foreign policy is one of the best 
antidotes to anti-Semitic rhetoric. The NCSJ supports Administration 
and Congressional actions of the last few months in condemning the 
Communist Party's attempt to rekindle anti-Semitism. In particular, 
NCSJ is grateful for the strong message sent by Vice President Al Gore 
and Secretary of State Albright in their recent meetings with Prime 
Minister Primakov and Foreign Minister Ivanov. It is imperative that 
U.S. policy continues its engagement in working with and supporting 
pro-democracy forces in Russia and elsewhere, and to counter negative 
messages of ethnic hatred, such as those adopted by the Communist Party 
of Russia. The NCSJ also looks forward to working with the Advisory 
Committee on Religious Freedom Abroad, recently created under the 
International Religious Freedom Act of 1998.
    Anti-Semitism has a deep-seated history in Russia. In Tsarist 
times, a ``Pale of Settlement'' created a boundary, restricting where 
Jews could live, while pogroms--mass riots that killed thousands of 
Jews--prevailed throughout the Russian empire. In the Soviet era, anti-
Semitism was state policy, and its firmly-planted roots have allowed 
post-Soviet anti-Semitism to reappear, as the restraints on the 
Communist system were lifted. Incidents have occurred in the last few 
years, from synagogue bombings and cemetery desecration to threats and 
attacks on individuals. And it is commonly known that in times of 
economic and political turmoil in Russia, Jews have traditionally 
become scapegoats.
    In recent months, anti-Semitism has become a political tool for 
numerous members of the Communist leadership. Essentially, the 
legislative branch of the Russian government has become a vehicle to 
espouse anti-Semitism. Should the tensions their rhetoric is creating 
erupt into mass outright violence, Jews might be the first victims, but 
they would not be the last. We must defend the rights of all minorities 
in Russia, and make these views clearly known during this time of 
economic chaos and political uncertainty.
    While it is true that anti-Semitic and nationalist rhetoric largely 
emanates from extremist circles, such extremists can no longer be 
considered fringe groups. The Communist Party and other powerful 
factions in the Duma regularly tolerate the use of ethnic and anti-
Semitic slurs and proposals. The Duma has yet to pass legislation 
proposed by President Boris Yeltsin last spring, banning the use of 
swastikas. Russian National Unity, a violent and anti-Semitic 
nationalist organization, now has chapters in over a dozen cities 
across Russia, and anti-Semitic editorials in Russian newspapers such 
as Slavyanskaya Gazeta Parliamentary elections set for later this year, 
and the presidential vote to follow, can only increase the incentive 
for certain candidates to promote or tolerate inflammatory appeals to 
popular dissatisfaction, unless such behavior is commonly understood to 
be unacceptable.
    An independent poll taken last October in Moscow by the All-Russian 
Center for the Study of Public Opinion revealed that many Russians 
continue to stereotype Jews. Of 1,509 respondents, 52% responded 
negatively to Jewish social-political organizations and parties 
operating in Russia, and 64% responded negatively to a Jew becoming 
president of Russia. Asked whether a record should be kept of Jews 
holding leading positions in Russia and whether there should be a 
quota, 34% responded yes to both. When asked whether many Jews hold 
posts in the leadership's and government's inner circles, 41% agreed, 
23% of whom were not pleased about it. And, 29% of respondents did not 
believe General Albert Makashov should be indicted for his ``remarks 
about Jews.'' In addition, when asked whether nationality (i.e., ethnic 
origin) should be a factor when appointing someone to a key government 
post, 53% responded yes. The results of this survey indicate that 
during troubled economic and political times Russians return to 
negative stereotypes about Jews and power. It also sends a signal that 
public messages of anti-Semitism--such as those espoused by elected 
officials--have the potential to penetrate deeply into the psyche of 
the Russian population.
                               background
    Political anti-Semitism is a growing problem in the former Soviet 
Union, particularly in Russia. Today, in Russia, neo-Nazis, skinheads 
and fascist ideologues are increasingly committing violence against 
Jews and other ethnic minorities, while spreading anti-Semitic 
propaganda. In 1998, anti-Semitic incidents included the beating of two 
rabbis, the bombing of Moscow's Marina Roscha Synagogue for the second 
time in two years, neo-Nazi marches in central Moscow and in front of 
the Choral Synagogue, and the desecration of two Jewish cemeteries.
    Duma Member General Albert Makashov has become infamous in recent 
months for his anti-Semitic outbursts. Makashov publicly blames Jews 
for the country's economic problems, and advocates a reinstatement of 
the Pale of Settlement. The newspaper Zavtra, printed an editorial by 
Makashov in which he said that a ``Yid'' is ``a bloodsucker feeding on 
the misfortunes of other people. They drink the blood of the indigenous 
peoples of the state; they are destroying industry and agriculture.'' 
He recently led a chant at a mass rally, ``Death to the Yids!'' as 
demonstrators cheered. At another rally and repeatedly shown on Russian 
television, Makashov angrily shouted ``I will round up all the Yids and 
send them to the next world!'' On Monday of this week, February 22, 
Makashov continued his message of hate and violence in an address to a 
Cossack conference in Novocherkassk in the Rostov region, proclaiming, 
``We will be anti-Semites and must be victorious!'' But Communists in 
the Duma refuse to officially censure him or isolate him from the 
Party, and Makashov has found supporters among Russia's nationalists.
    Another Communist Duma Member using anti-Semitism as a political 
strategy is the head of the Duma's security committee, Victor Ilyukhin. 
He asserted at a parliamentary session in December that Jews were 
committing genocide against the Russian people. Ilyukhin complained 
that there are too many Jews in President Yeltsin's inner circle and 
called for ethnic quotas in government posts.
    The recent political assassination of Duma member Galina 
Staravoitova, an ardent advocate of human rights, underscores the 
political chaos and rampant, unchecked corruption raging through Russia 
today. In November 1998, the Duma voted down a censure vote on Albert 
Makashov, demonstrating its failure to prosecute officials who incite 
ethnic hatred. Shortly before her death, Staravoitova had spoken out 
against Makashov and his anti-Semitic rhetoric. During Staravoitova's 
funeral in St. Petersburg, the nationalist, anti-Semitic group The 
Black Hundreds, marched in front of the Parliament in Moscow in support 
of Makashov.
    In December 1998, President Yeltsin requested a statement from 
Communist Party Leader Gennady Zyuganov regarding his party's position 
on anti-Semitism. Zyuganov subsequently sent a letter to the Justice 
Ministry and the national security chief, containing harsh anti-Semitic 
references reminiscent of anti-Semitic views in the Soviet era. In 
fact, his statement in the letter that Jews should either emigrate, 
assimilate or live as Jews pledging sole allegiance to Russia echoes a 
statement made by Tsar Nicholas II 100 years ago that one-third of Jews 
should be killed, one-third should emigrate, and the last third convert 
to Orthodoxy. The letter also states, ``Zionism has actually shown 
itself to be one of the strains of theory and practice of the most 
aggressive imperialist circles striving for world domination. In this 
respect it is related to fascism.'' Not only has Zyuganov failed to 
condemn the anti-Semitic rhetoric of his colleagues in the Duma, but 
also he has made his own hateful views clear, speaking on behalf of the 
entire Communist Party.
    Before her visit last month to Moscow, Secretary Albright met at 
length with the National Conference on Soviet Jewry, the Anti-
Defamation League, the Conference of Presidents of Major American 
Jewish Organizations, the American Jewish Committee, and B'nai B'rith 
International. The Secretary shared our concerns over anti-Semitic 
trends and, in her meetings with the Russian leadership, repeatedly 
raised this issue and urged Prime Minister Yevgeni Primakov to publicly 
express his opposition to anti-Semitic political rhetoric, as President 
Yeltsin and others have done on several occasions. While arranging 
meetings with several of Russia's presidential hopefuls, Secretary 
Albright conspicuously avoided any contact with Mr. Zyuganov.
    In the southern city of Krasnodar, the anti-Semitic rhetoric of 
Governor Nikolai Kondratenko has reverberated for years. On television, 
at youth forums, and at mass rallies, Kondratenko charges that Zionists 
brutally oppress ethnic Russians, and blames Jews for the political and 
economic problems that plague Russia. ``Today we warn that dirty 
cosmopolitan brotherhood: You belong in Israel or America,'' 
Kondratenko said at a rally. He has turned the patriotism on which he 
campaigned into ultra-nationalism, declaring that ethnic Russians are 
the only group that belongs in the region. Kondratenko has just won re-
election, and the anti-Semitic rhetoric has reached a new level. In 
December 1998, residents of the Kuban region of Krasnodar found 
leaflets in their mailboxes with the message, ``Help save your dear, 
flourishing Kuban from the damned Jews-Yids! Smash their apartments, 
set their homes on fire! They have no place on Kuban territory . . . 
Anyone hiding the damned Yids will be marked for destruction the same 
way. The Yids will be destroyed. Victory will be ours!'' According to 
recent press reports, Kondratenko--though remaining anti-Zionist--has 
expressed regret for some of his own anti-Semitic statements, but the 
tone he has already set for the statements and actions of others is 
itself regrettable.
    Economic conditions in Russia have deteriorated drastically in the 
past year. A fluctuating ruble, inflated consumer prices, and rampant 
unpaid wages and pensions plague Russian citizens. The chaotic economic 
conditions, coupled with an unstable political situation, make the 
future vastly uncertain and have prompted Russians to look for someone 
to blame; a traditional choice in Russia has been the Jews.
    In this context, I also wish to quote from suggestions adopted last 
week by the Commission on International Affairs of the American Jewish 
Congress, a member agency of NCSJ:
          The readiness of Russian society to reject and repudiate 
        anti-Semitism is a measure of the readiness of that society to 
        adopt substantial change. Firm action against anti-Semitism is 
        a necessary and credible indication that Russia is willing to 
        face up to and take on the whole host of other problems it 
        confronts in its national life.
          This readiness can best be demonstrated by explicit 
        repudiation of all forms of anti-Semitism and anti-Semitic 
        statements or policies that emanate from or are endorsed by 
        government leaders, including action by the Duma disavowing and 
        reversing its failure to censure General Albert Makashov.
          This new resolve could be demonstrated in part, by the 
        adoption of clear and transparent means of ensuring strict 
        enforcement of those laws that already make it a crime to 
        foment anti-Semitic and other ethnic hatred.
                               conclusion
    Anti-Semitism remains a serious threat in Russia today. 
Totalitarian philosophies, such as those cited above, are not concerned 
with human rights, and have negative views toward minority groups. 
Meanwhile, weak democratic structures exist in the former Soviet Union, 
allowing the unchecked freedom to propagate ethnic hatred and violence. 
The Soviet Jewry movement has made great achievements over the past 
three decades. Now is not the time to let a reactionary voice override 
these accomplishments. Now is the time for Russia's leadership to 
exhibit a greater resolve in addressing this issue.
    It is critical that the Russian government understand the 
importance of its commitment to human rights and the rule of law, and 
that it adhere to that commitment. It is critical that Russia develop 
the necessary infrastructure to support economic development, and 
guarantees law enforcement and the protection of civil rights for all 
its citizens. It is critical to advocate the prosecution of anyone, 
from common citizen to government official, who propagates ethnic 
hatred. This is the time to send a strong message to Russia, denouncing 
the growing anti-Semitism and urging these officials to take concrete 
action to eradicate and repudiate anti-Semitism.
    The situation also requires continued U.S. government leadership. 
U.S. leaders, including Members of Congress, must continue to emphasize 
to Russia's leadership the ongoing transition toward a democratic and 
pluralistic society in Russia and the development of an appropriate 
infrastructure to support economic development, law enforcement and 
minority rights. Crucial to protecting the development toward democracy 
is a strong effort to address the economic difficulties in Russia and 
remain actively engaged in foreign policy efforts so that democracy and 
a market-oriented economy can flourish. The U.S. must signal to Russia 
that we stand by a strong commitment to human rights and we are ready 
to assist them in every way possible in building the foundations of 
democracy.
    It is also imperative that human rights organizations develop 
educational initiatives that foster pluralism and tolerance and support 
for human rights and democracy. Some Western models for combating 
racism and ethnic hatred--such as the innovative programs of the Anti-
Defamation League and the American Jewish Committee, both member 
agencies of the National Conference on Soviet Jewry--may be adapted to 
Russian communities as well. Such programs can encourage multi-cultural 
understanding and comprise a long-range strategy toward the eradication 
of anti-Semitism and ethnic hatred in Russia. The NCSJ is prepared to 
work with other human rights groups to develop appropriate educational 
programs.
    The NCSJ supports and encourages government-to-government contacts 
and the raising of specific concerns at every possible opportunity. 
This includes correspondence as well as meetings in the United States 
or in the former Soviet Union. As it has been through 30 years of 
Soviet and post-Soviet history, Russian officials must know that anti-
Semitism and appeals to ethnic hatred are unacceptable in American eyes 
and counter-productive to realizing the fullest potential of the 
Russian people.
    Earlier this week, the Jewish Council for Public Affairs--a 
national community-relations umbrella body and a member organization of 
NCSJ--passed its community-relations agenda for 1999-2000 focusing on 
both the challenges and opportunities facing Russia and its Jewish 
community of over one million. The NCSJ agrees with the American Jewish 
Congress, whose Commission on International Affairs states: ``We choose 
to believe that anti-Semitism is not indelibly and immutably rooted in 
the Russian character.'' Such hopes notwithstanding, real progress can 
only be judged by real statements, actions, and results.
    The NCSJ has worked closely with the U.S. government in this 
endeavor, and we will continue to do so. We urge the U.S. government to 
continue its efforts and work with other governments and international 
organizations to promote the development of democratic and pluralistic 
institutions and traditions. The protection of minority rights--within 
the overarching goal of promoting human rights--is at the heart of this 
effort. Russia's successful development toward democracy depends on it.

                                 ______
                                 
          The Reemergence of Political Anti-Semitism in Russia
                            i. introduction
    Political anti-Semitism appears to be on the rise in Russia, where 
an unstable political situation and chaotic economic conditions have 
led some to blame Jews for society's ills. While the anti-Semitism that 
existed as official state policy during the Soviet era has not 
resurfaced, some prominent political figures, particularly those 
associated with the Communist party, have employed anti-Semitism to 
further their own political ambitions. Such anti-Semitism, espoused by 
government leaders in parliamentary hearings, on television, in 
newspapers and at mass rallies, threatens to create a hostile 
environment for the Russian Jewish community. Furthermore, as this 
practice of scapegoating Jews as the source of Russia's economic and 
social problems has become increasingly common on both the national and 
local levels, some analysts suggest that these lawmakers are trying to 
garner support from nationalist voters ahead of the late 1999 general 
elections and 2000 Presidential elections. Alarmingly, these 
politicians have made their anti-Semitic statements without penalty by 
their colleagues or the state.
                       ii. background conditions
    Faltering political and economic conditions in Russia today have 
brought fear and uncertainty to much of the population. President 
Yeltsin's poor health and his apparent impulsive governing style have 
led to a general lack of confidence in the government. At the same 
time, nationalist groups and the Communist party appear to be gaining 
strength.
    By failing to implement needed economic reforms, the government has 
permitted both the financial and political crises to persist. The 
August 1998 devaluation of Russia's monetary unit, the ruble, sank the 
exchange rate and caused many Russians to lose their savings. It also 
attached a tremendous price tag on imports, including food and other 
consumer goods. The emergency measure of printing excess money to pay 
back wages and pensions also caused inflation and frustration among the 
population to soar. Meanwhile, a bad harvest this year--considered the 
worst in decades--has Russians concerned about food supplies lasting 
throughout the winter.
                  iii. growing anti-semitism in russia
    Amidst these difficult circumstances there has developed an 
increased sense of insecurity among Russian Jews, who in recent months 
have confronted strident anti-Semitic rhetoric in the political arena 
on both the national and local levels and a number of highly public 
acts of anti-Semitic violence.
Political Anti-Semitism--National Level
    On the national level, the case of Communist Party General Albert 
Makashov is particularly striking. As a member of the Duma, the 
National Parliament, General Makashov has become infamous worldwide for 
his anti-Semitic outbursts blaming Jews for the country's economic 
problems, and his advocacy of the establishment of a quota on the 
number of Jews allowed in Russia. He has also publicly supported the 
reinstatement of the Pale of Settlement, territory in which Jews were 
restricted to live during the 19th century.
    Other outrageous pronouncements by General Makashov include an 
editorial by him in the Russian newspaper Zavtra, printed in October 
1998 which stated that a ``Yid,'' a derogatory term used in Russia to 
mean Jew, is ``a bloodsucker feeding on the misfortunes of other 
people. They drink the blood of the indigenous peoples of the state; 
they are destroying industry and agriculture.'' He caused the greatest 
splash later in October when he led two fiery rallies, in Moscow and 
Samara, commemorating the 81st anniversary of the Bolshevik Revolution, 
which were repeatedly shown on Russian television. At these rallies 
Makashov angrily shouted ``I will round up all the Yids and send them 
to the next world!"
    The Duma has failed to explicitly censure General Makashov for his 
anti-Semitic remarks, and in particular for his comments calling for 
death to Jews. In November 1998, the Communist members blocked two 
different motions to censure the retired General, which had been put 
forward by the opposition Yaboloko party. Rather, the parliament 
adopted a vaguely worded resolution, condemning ethnic hatred, with no 
reference to Jews, anti-Semitism or General Makashov. The Communist 
party has also failed to condemn General Makashov or to discipline him. 
Instead, the General has found a number of vocal supporters within his 
party and among Russia's many nationalists.
    In reaction to General Makashov's October comments and the Duma's 
failure to censure him, President Yeltsin requested a statement from 
Communist Party Leader Gennady Zyuganov regarding his party's position 
on anti-Semitism. Mr. Zyuganov's response reiterated the accusations 
made by the most anti-Semitic members of his party. In the form of a 
letter to the Ministry of Justice and the National Security Chief, 
Zyuganov's response contained harsh anti-Semitic references reminiscent 
of the old Soviet era and served only to heighten concerns about anti-
Semitism in Russia.
    The letter stated open opposition to Zionists, contending that 
Zionism is among the ``most aggressive imperialist circles striving for 
world domination. In this respect it is related to fascism,'' and 
further asserted that, ``Communists . . . rightly ask how it can be 
that key positions in a number of economic sectors were seized by 
representatives of one ethnic group. They see how control over most of 
the electronic media--which are waging a destructive campaign against 
our fatherland and its morality, language, culture and beliefs--is 
concentrated in the hands of those same individuals.'' To many, Mr. 
Zyuganov's remarks came as no surprise, as he has long been known to 
use anti-Semitism for political gain.
    In January 1999, the Russian Federal Security Service (FSB) closed 
a criminal case against a number of Russian extremists, including 
General Makashov, after determining that his anti-Semitic rhetoric does 
not constitute criminal activity. However, in late January, Russian 
prosecutors launched a separate criminal case against General Makashov, 
seeking to convict him of inciting ethnic hatred, an offence Russian 
criminal code.
    At the same time, many believe that General Makashov's anti-Semitic 
activity has permitted other nationalists to feel free to unleash their 
own anti-Semitism. Indeed, some nationalist factions sharing the 
parliamentary majority have become increasingly willing to use anti-
Semitism as a political strategy. In December, the head of the Duma's 
Security Committee and Communist party member, Victor Ilyukhin, 
asserted at a parliamentary session that Jews were committing genocide 
against the Russian people. He complained that there are too many Jews 
in President Yeltsin's inner circle and called for ethnic quotas in 
government posts to remedy the situation. In support of Ilyukhin's 
anti-Semitic comments, Russia's Human Rights Commissioner Oleg Mironov 
stated that ethnic Russians should have a special status in Russia. 
``The Russian idea [anti-Semitism] is being voiced. And it should be 
voiced in a country where the majority of the population is Russian.''
Local level
    Krasnodar: On the local level the most outstanding case of 
political anti-Semitism is that of Nikolai Kondratenko, Governor of the 
southern Russian region of Krasnodar. For the past 2 years, residents 
of Krasnodar have been bombarded with his anti-Semitic rhetoric on 
television, at youth forums, and at mass rallies where he regularly 
charges Zionists with brutal oppression of ethnic Russians, and blames 
Jews for the political and economic problems plaguing Russia. ``Today 
we warn that dirty cosmopolitan brotherhood: You belong in Israel or 
America,'' Kondratenko said at a Russian Victory Day rally in March 
1997.
    More recently, in March 1998 at a youth Congress in Krasnodar he 
addressed his audience with a 2-hour speech dedicated to the ``Jewish 
Question.'' Elected on a platform of Russian patriotism, since becoming 
Governor, Kondratenko has transformed this position into one of ultra-
nationalism, declaring that ethnic Russians are the only ethnic group 
which belongs in the region. Kondratenko recently won re-election in 
Krasnodar which will keep him in power until the year 2000.
    St. Petersburg: In November 1998, the election campaign for the 
local legislature in St. Petersburg was loaded with anti-Semitic 
undertones, from anti-Semitic newspaper and television appeals to 
defaced campaign posters and leaflets disparaging Jewish candidates. 
The St. Petersburg Times reported anti-Semitic graffiti that read, 
``Bash Yids; Save Russia,'' smeared across the wall of the campaign 
headquarters of a Jewish candidate, Victor Krivulin. In response, the 
city's residents overwhelmingly elected liberal candidates for city 
council in the December run-off election. But the anti-Semitic flare-
ups that characterized the campaign shocked many who had viewed the 
city's population as generally well-educated.
Popular Anti-Semitism
    Numerous incidents of popular or ``street'' anti-Semitism also took 
place in 1998, as they have for the past several years. It is important 
to note that there is no evidence of an increase in physical attacks 
against Jews from past years. However, these attacks, in conjunction 
with the mood of political anti-Semitism throughout the country, have 
made the Jewish community feel particularly vulnerable. Among such 
incidents have been the May bombing of the Marina Roscha Synagogue in 
Moscow; the beatings of two rabbis; a number of neo-Nazi marches in 
central Moscow; and the desecration of several Jewish cemeteries around 
the country.
    For many years ultra-nationalists and anti-Semites have found a 
place within Russia. Neo-Nazis and Skinheads have been spreading anti-
Semitic propaganda and committing violence against Jews. Currently, 
some 80 nationalist political parties and organizations exist in 
Russia, 3 of which have adopted neo-Nazi symbols, ideology and 
behavior. These parties disseminate copies of more than 150 different 
extremist periodicals, many including neo-Nazi literature, to the 
Russian-speaking population throughout the former Soviet Union.
    For example, the virulently anti-Semitic extremist group, Russian 
National Unity, is a paramilitary group registered in twenty-five 
Russian regions. It is thought to have at least 6,000 active members 
and up to 50,000 non-active members and has a presence in some of 
Russia's ruling bodies. At the same time the Skinhead movement in 
Russia, which first appeared in the mid-90's already claimed 10,000 
members by 1997. In July 1998, the Russian Government proposed a ban on 
Nazi symbols and literature, but the legislation is still awaiting 
approval from the Russian Parliament. Locally, however, the Mayor of 
Moscow Yuri Luzhkov, a contender in the 2000 Presidential race, 
prohibited the National Unity from holding its convention in Moscow in 
December 1998.
    A leader of Russian National Unity, Igor Semyonov, was sentenced in 
1998 to 2 years in prison for inciting hatred toward Jews and people 
from the Caucasus Mountains. At the trial, a local Communist leader 
denied the massacre of over 33,000 Jews at Babi Yar in 1941 and a 
Russian Orthodox Priest testified that according to the Talmud, Jews 
``kill children, gather blood'' and use it to make matzah. Although the 
judge sentenced Semyonov, no objection was made to the anti-Semitic 
testimonies used at the trial.
    In June 1998, the Russian Government ordered the reburial of Czar 
Nicholas II and his family in St. Petersburg. During the preceding 
months, the Russian Government and the Russian Orthodox Church 
conducted an investigation into the killing of the Czar and his family, 
which included a probe into whether they perished in a ``ritual 
murder'' perpetrated by a Jewish conspiracy. The Church also published 
this xenophobic assertion in a final report on the death of Czar 
Nicholas II.
    In December 1998, residents of a number of apartment buildings in 
the Kuban region of Krasnodar found leaflets circulated by a local 
fascist group in their mailboxes with the message, ``Help save your 
dear, flourishing Kuban from the damned Jews-Yids! Smash their 
apartments, set their homes on fire! They have no place on Kuban 
territory . . . Anyone hiding the damned Yids will be marked for 
destruction the same way. The Yids will be destroyed. Victory will be 
ours!'' The leaflets also called on voters to support Governor 
Kondratenko, known for his anti-Semitism, for president. However, 
citizens reacted by immediately reporting the leaflets to local 
authorities as an incident of anti-Semitism. Meanwhile, also in 
December residents of the city of Novosibirsk in Siberia found their 
mailboxes stuffed with anti-Semitic messages blaming Jews for the 
nation's economic hardships. This took place after a spurt of racial 
graffiti around the city and the distribution of hundreds of stickers 
with the slogan, ``Jews are Rubbish.''
    At the same time, local education officials in Krasnodar 
recommended that an anti-Semitic book be used as a high school history 
textbook. ``The Secret History of Russia in the 20th Century,'' was 
published with public funds, and contains anti-Semitic myths about the 
negative influence of Jews in Russia since the 1917 Bolshevik 
Revolution.
Russian Reaction
    Whatever these troubled economic and political times suggest for 
Russia's future, during the past year the Yeltsin administration has 
made various efforts to work against the nationalist and extremist 
forces in their nation. In an historic address to the Nation on the 
occasion of the 57th anniversary of Nazi Germany's invasion of Russia 
in June 1998, President Yeltsin warned for the first time of an 
increasing threat to Russia by the active neo-Nazi movement. In 
addition, throughout the year he and other senior members of his 
government have condemned a number of manifestations of anti-Semitism 
in Russia.
    In July 1998 the President again spoke out against neo-Nazism by 
criticizing his Justice Minister for allowing extremist and ultra-
nationalist groups to receive official certification in Russia. He said 
that the Russian Constitution prohibits registration of such groups. In 
September he attended an historic ceremony for the opening of the 
Holocaust Memorial and Synagogue in Moscow and called for a moment of 
silence for those who perished in the Holocaust, while Moscow Mayor 
Yuri Luzhkov presented an 18th century Torah scroll to the synagogue.
    In November 1998, following the Duma debate on General Makashov's 
anti-Semitic remarks which ended in a failure to condemn the General, 
President Yeltsin issued a public statement against extremism and 
ethnic hatred. His top security and defense officials also met at that 
time with the President's Chief of Staff to discuss the growing threat 
of anti-Semitism and extremism in Russia.
    Furthermore, a number of Jewish and liberal lawmakers have been 
outspoken in expressing their outrage at the new trend in political 
anti-Semitism ahead of the upcoming elections. Following the Duma's 
failure to censure General Makashov, Duma member Iosif Kobzon asked his 
legislative colleagues to shield him and other Jewish lawmakers from 
such nationalist supporters. He said, ``The Duma is supposed to 
represent the nation. Instead it seems to be condoning Makashov and his 
open anti-Semitism.'' As Makashov supporters rallied outside the 
parliament building shouting anti-Semitic slogans, some Jewish and 
liberal lawmakers responded by walking out on the Duma session.
    One particularly ardent advocate of human rights, who frequently 
spoke out against anti-Semitism in Russia was Galina Staravoitova, a 
member of the Duma and adviser to President Yeltsin on nationality 
issues. In November Ms. Staravoitova was assassinated, startling Russia 
and human rights activists worldwide. She was one of the leading voices 
of democracy in Russia and a true friend to the Jewish community. In 
fact, shortly before her death, she aggressively spoke out against 
General Makashov's rhetoric and criticized her colleagues for their 
failure to censure him. While there is no evidence that her murder was 
an act of anti-Semitism, it indeed underscores the political chaos and 
rampant, unchecked corruption raging through Russia today. During her 
funeral in St. Petersburg, the nationalist, anti-Semitic group The 
Black Hundreds, marched in front of the parliament in Moscow in support 
of General Makashov.
    A recent poll sheds light on the popular Russian reaction toward 
the trend of political anti-Semitism. The independent poll taken in 
October in Moscow by the All-Russian Center for the Study of Public 
Opinion revealed that a majority of Russians agree that anyone 
insulting the national dignity of the Jews should be prosecuted with 
all the severity of the law and that it is necessary to guarantee that 
Jews continue to enjoy equal rights in access to institutions of higher 
learning. At the same time, however, the poll demonstrated that of 
1,509 respondents, 52 percent would respond negatively to Jewish 
social-political organizations and parties operating in Russia, while 
34 percent believe records should be kept of Jews holding leading 
positions in Russia, and that quotas should be kept on such numbers.
                      iv. russian jewish community
    The Jews of the Russia Federation comprise the world's third 
largest Jewish community, with an estimated population of 500,000-
600,000. For the past several years, a revival of Jewish life has been 
taking place in the community, including efforts to re-establish 
religious and cultural life and to provide for the well-being and 
security of its people. Well over 100 Jewish organizations and groups 
operate in Moscow today. They range from religious and cultural, 
research and education, to charitable and welfare institutions.
    The organized Russian Jewish community has taken the current 
precarious political situation very seriously and has expressed 
concerned about the future well-being of the Jewish population in 
Russia. The Russian Jewish Congress (REK), an umbrella organization 
recently established to assist in rebuilding Jewish life in Russia, has 
met with the Russian National Security Council as well as Prime 
Minister Yevgeny Primakov regarding the anti-Semitic statements made by 
General Makashov and Victor Ilyukhin. The REK succeeded in encouraging 
the Israeli parliament, Knesset, and the European Parliament to pass 
resolutions condemning the lawmakers* statements and has publicly 
challenged the Communist leadership. The VAAD, another Jewish umbrella 
group, which offers guidance and takes public stands on issues 
affecting the Russian Jewish community, has been increasingly active in 
light of the recent political atmosphere, speaking out on the issue of 
anti-Semitism in Russia.
    As a whole, the organized Russian Jewish community has urged its 
members not to engage in contact with Communist Party leader Zyuganov 
or other Duma members who espouse or support anti-Semitic rhetoric. The 
community has asserted that the Communist Party should be isolated, 
until it rescinds its anti-Semitic manifesto and prosecutes party 
members who espouse anti-Semitic hatred.
                             v. conclusion
    The Anti-Defamation League and the National Conference on Soviet 
Jewry have called on Russian political, business, religious, 
educational and cultural leaders to take steps to prevent the further 
spread of political and other forms of anti-Semitism. ADL and NCSJ have 
urged these leaders to undertake a comprehensive and sustained campaign 
to counteract these increasingly vocal voices of intolerance and 
divisiveness. Such a campaign must be fought through legislation, law 
enforcement, education and popular culture.
    While Soviet-era laws intended to combat fascist propaganda and 
extremism remain on the books in Russia, police and judicial 
enforcement and implementation of these laws are lackluster. In 
addition, elected officials are immune from prosecution for inciting 
ethnic hatred. President Yeltsin has pledged to initiate legislation to 
counter anti-Semitism and extremism, but the Russian Parliament, 
comprised largely of Communists and nationalists, is not expected to 
pass.
    The Government of Russia must enact more precise hate-crime and 
hate-speech laws and enforce existing laws for all citizens, including 
elected officials. National and local task forces should be established 
to coordinate this implementation. A special unit of law enforcement 
should be charged with monitoring hate groups. Finally, training 
programs for law enforcement should be established to instruct them on 
how to recognize hate crimes and to sensitize law enforcement in 
dealing with victims of hate crimes.
    Just as the United States took the lead in support of freedom for 
Soviet Jewry during the Soviet era, it must continue to take the lead 
in assisting Russia through the transition toward a democratic society. 
To this end, the U.S. must make it clear to the Russian Government that 
the U.S. expects a strong commitment to human rights and the protection 
of minorities.
    Today the former Soviet Union's weak democratic structures, allow 
these manifestations of ethnic hatred and violence to go unchecked. 
Ultra-nationalist forces, such as those cited above, do not display 
concern for human rights, and demonstrate harsh views toward minority 
groups. The transition toward a democratic and pluralistic society in 
Russia continues to proceed slowly, as does the development of an 
appropriate infrastructure to support economic development, law 
enforcement and minority rights.

                                  <all>

</pre></body></html>
